<html>
<title> - RESOURCING DHS'S CYBERSECURITY AND INNOVATION MISSIONS: A REVIEW OF THE FISCAL YEAR 2020 BUDGET REQUEST FOR THE CYBERSECURITY AND INFRASTRUCTURE SECURITY AGENCY AND THE SCIENCE AND TECHNOLOGY DIRECTORATE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


RESOURCING DHS'S CYBERSECURITY AND INNOVATION MISSIONS: A REVIEW OF THE 
       FISCAL YEAR 2020 BUDGET REQUEST FOR THE CYBERSECURITY AND 
     INFRASTRUCTURE SECURITY AGENCY AND THE SCIENCE AND TECHNOLOGY 
                              DIRECTORATE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                       PROTECTION, AND INNOVATION

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2019

                               __________

                           Serial No. 116-14

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

                  U.S. GOVERNMENT PUBLISHING OFFICE                    
37-454 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f98996b99a8c8a8d919c9589d79a9694d7">[email&#160;protected]</a>    



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                            
                            
                            ------                                

     SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND 
                               INNOVATION

                Cedric L. Richmond, Louisiana, Chairman
Sheila Jackson Lee, Texas            John Katko, New York, Ranking 
James R. Langevin, Rhode Island          Member
Kathleen M. Rice, New York           John Ratcliffe, Texas
Lauren Underwood, Illinois           Mark Walker, North Carolina
Elissa Slotkin, Michigan             Van Taylor, Texas
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
               Moira Bergin, Subcommittee Staff Director
           Sarah Moxley, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     1
  Prepared Statement.............................................     5
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................    12
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Prepared Statement.............................................    11

                               Witnesses

Mr. Christopher C. Krebs, Director, Cybersecurity and 
  Infrastructure Security Agency, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. William Bryan, Senior Official Performing the Duties of the 
  Under Secretary, Science and Technology Directorate, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21

                             For the Record

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Letter.........................................................     2
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article........................................................    40

                                Appendix

Questions From Chairman Bennie G. Thompson for Christopher C. 
  Krebs..........................................................    45

 
RESOURCING DHS'S CYBERSECURITY AND INNOVATION MISSIONS: A REVIEW OF THE 
       FISCAL YEAR 2020 BUDGET REQUEST FOR THE CYBERSECURITY AND 
     INFRASTRUCTURE SECURITY AGENCY AND THE SCIENCE AND TECHNOLOGY 
                              DIRECTORATE

                              ----------                              


                        Tuesday, April 30, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
             Subcommittee on Cybersecurity, Infrastructure 
                                Protection, and Innovation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:28 p.m., in 
room 310, Cannon House Office Building, Hon. Cedric L. Richmond 
(Chairman of the subcommittee) presiding.
    Present: Representatives Richmond, Jackson Lee, Langevin, 
Rice, Underwood, Katko, Ratcliffe, Walker, and Taylor.
    Also present: Representative Thompson.
    Mr. Richmond. The Subcommittee on Cybersecurity, 
Infrastructure Protection, and Innovation will come to order.
    The committee is meeting today to receive testimony on the 
fiscal year 2020 budget request for Cybersecurity and 
Infrastructure Security Agency, and the Science and Technology 
Directorate.
    Good afternoon. I would like to thank the witnesses for 
being here today to discuss an important priority for this 
committee, funding the cybersecurity, infrastructure security, 
and innovation missions at the Department of Homeland Security.
    Well, before we begin, I would like to send my condolences 
to the victims and families of the recent synagogue shooting in 
California. We are keeping Poway community in our thoughts and 
prayers this week.
    But thoughts and prayers aren't enough. We also need to 
demand more of the President and his administration in the face 
of the rising threat of white nationalism and anti-Semitism 
seriously.
    Returning to the topic of today's hearing, I want to begin 
by thanking the full committee Ranking Member Rogers and 
subcommittee Ranking Member Katko for joining committee 
Democrats in writing to appropriate us to seek additional 
funding for CISA's cybersecurity mission.
    I ask unanimous consent to insert a copy of the letter into 
the record. Hearing no objection, the letter is inserted.
    [The information follows:]
            Letter Submitted by Honorable Cedric L. Richmond
                                    April 10, 2019.
The Hon. Nita Lowey,
Chairwoman, Committee on Appropriations, U.S. House of Representatives, 
        H-307 The Capitol, Washington, DC 20515.
The Hon. Kay Granger,
Ranking Member, Committee on Appropriations, U.S. House of 
        Representatives, 1016 Longworth House Office Building, 
        Washington, DC 20515.
    Dear Chairwoman Lowey and Ranking Member Granger: As Congress 
navigates the Fiscal Year 2020 (FY 2020) appropriations process, we 
urge you to increase the Homeland Security Subcommittee's fiscal year 
2020 302(b) allocation. By providing additional funding in fiscal year 
2020, the Appropriations Committee can ensure Congress is able to 
properly resource Federal cybersecurity and critical infrastructure 
protection efforts at the Department of Homeland Security's (DHS) 
Cybersecurity and Infrastructure Security Agency (CISA).
    The American people and our government depend increasingly upon the 
Internet for daily conveniences, critical services, and economic 
prosperity. This extraordinary level of connectivity, however, has also 
introduced progressively greater cyber risks for the United States. 
Protecting sensitive information on government networks and ensuring 
access to safe food, reliable electricity and transportation, clean 
water, and secure election infrastructure through cyberspace also 
introduces new vulnerabilities and potentially catastrophic 
consequences from cyber incidents. Long-standing threats from nation-
states, terrorists, transnational criminal organizations, and other 
malicious actors continue to evolve in scope, scale, and complexity as 
our adversaries move their activities into the digital world. More than 
ever, cyber threats now exceed the danger of physical attacks.
    Despite the warning signs, investment in our Federal civilian 
cybersecurity capabilities simply has not kept pace. Threats to our 
Federal networks and critical infrastructure constantly evolve, and our 
adversaries' capabilities outpace our defenses. In today's world, a 
flat cybersecurity budget is just as dangerous as a cut. If our 
fundamental cybersecurity capabilities are not fully resourced, 
vulnerabilities will continue to go unaddressed, and America's embrace 
of digital infrastructure risks becoming a source of strategic 
liability.
    Congress must rethink the way we resource this mission. Additional 
investments are necessary to ensure the United States is not only 
capable of responding to the global threat, but that we are preparing 
for future threats as well. We urge the Committee to break from the 
status quo and increase the Homeland Security Subcommittee's 302(b) 
allocation commensurate with the threat. It is imperative that the 
Homeland Security Subcommittee's 302(b) allocation enable CISA to 
mature and grow the services it provides to secure Federal and critical 
infrastructure networks.
    We appreciate your leadership on this issue and applaud the 
Committee's historic support of DHS's cybersecurity and infrastructure 
protection activities. Increased funding provided over the past few 
years has helped CISA bring Federal departments and agencies into the 
National Cybersecurity Protection System, sped deployment of Continuous 
Diagnostics and Mitigation tools and capabilities across the Federal 
enterprise, and dramatically expanded our nation's election security 
efforts. Now that CISA has demonstrated it is up to the task, it is 
time for Congress to resource the agency to fully execute its critical 
homeland security mission.
    Thank you for your thoughtful consideration of our request.
            Sincerely,
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]            

    Mr. Richmond. From election security to supply chain 
security, we ask more of DHS's cybersecurity arm every year.
    Despite CISA's growing mission, its budget has remained 
stagnant. Since taking office, the President and those around 
him have paid a lot of lip-service to the issues related to 
cybersecurity and innovation. But there hasn't been much 
follow-through.
    In February, for example, the President touted his 
innovation agenda, but his fiscal year 2020 budget slashes 
funding for the S&T by nearly one-third.
    In September, former Secretary Nielsen stated that cyber 
attacks now exceed the risk of physical attacks. Yet, the 
President's fiscal year 2020 budget would cut CISA's 
cybersecurity funding.
    Last Fall, the White House released the National cyber 
strategy, which among other things, promised to further enable 
the Department of Homeland Security to secure Federal 
department and agency networks. But the fiscal year 2020 budget 
failed to request additional funds or additional authorities 
for CISA's Federal network security mission.
    Although officials throughout the administration have 
declared that election security is a priority, no one in the 
White House has been directed to coordinate a Federal response, 
and it has never been a budget priority.
    Instead, this National security issue seems to be viewed as 
a hot potato in the President's inner circle, not worthy of a 
whole-of-Government approach.
    To complicate matters, all of this is happening in the 
absence of a White House cybersecurity coordinator, which the 
White House eliminated last year.
    The Mueller report makes clear that our adversaries will 
continue to meddle in our elections. DHS and the FBI have 
issued numerous warnings about threats Russia, China, Iran, and 
North Korea, among others, pose to our critical infrastructure.
    The threats we face are constantly evolving. Our 
cybersecurity capabilities and the technology we deploy must do 
the same. In short, the time has come for less talk and more 
action. If the White House won't lead, then Congress will.
    I am hopeful that our bipartisan efforts to secure the 
additional funding for CISA's cybersecurity activities will be 
successful. I urge appropriators to reject the drastic cuts 
proposed to S&T's budget.
    As the Chairman of this subcommittee, I take my oversight 
responsibility at CISA and S&T seriously. That said, it is hard 
to do effective oversight when Congress has given an agency a 
mission that the President's budget doesn't fully support.
    In the mean time, I look forward to understanding how this 
committee can help CISA clarify its cybersecurity 
responsibilities among its interagency partners, particularly 
in the absence of a permanent Secretary.
    Now that CISA has publicly released a National critical 
functions list, I will be interested in understanding how it 
will coordinate across sectors and the interagency to develop 
the risk register.
    I will be interested to know how we can support S&T's 
efforts to equip DHS's components and first responders across 
the country with the technology they need to do their jobs 
better and safer.
    I look forward to the conversation we will have today, and 
I yield back the balance of my time.
    [The statement of Chairman Richmond follows:]
                Statement of Chairman Cedric L. Richmond
                             April 30, 2019
    I would like to thank the witnesses for being here today to discuss 
an important priority for this committee: Funding the cybersecurity, 
infrastructure security, and innovation missions at the Department of 
Homeland Security. But before I begin, I would like to send my 
condolences to the victims and families of the recent synagogue 
shooting in California. We are keeping the Poway community in our 
thoughts this week. But thoughts and prayers aren't enough. We also 
need to demand more of the President and his administration in the face 
of the rising threat of white nationalism and anti-Semitism seriously.
    Returning to the topic of today's hearing, I want to begin by 
thanking Full Committee Ranking Member Rogers and Subcommittee Ranking 
Member Katko for joining committee Democrats in writing to 
appropriators to seek additional funding for CISA's cybersecurity 
mission. From election security to supply chain security, we ask more 
of DHS's cybersecurity arm every year. Despite CISA's growing mission, 
its budget has remained stagnant. Since taking office, the President 
and those around him have paid a lot of lip service to issues related 
to cybersecurity and innovation but there hasn't been much follow-
through. In February, for example, the President touted his innovation 
agenda but his fiscal year 2020 budget slashes funding for S&T by 
nearly one-third. In September, former Secretary Nielsen stated that 
``cyber attacks now exceed the risk of physical attacks.''
    Yet the President's fiscal year 2020 budget would cut CISA's 
cybersecurity funding. Last fall, the White House released the National 
Cyber Strategy, which, among other things, promised to ``further enable 
the Department of Homeland Security (DHS) to secure Federal department 
and agency networks.'' But the fiscal year 2020 budget failed to 
request additional funds or additional authorities for CISA's Federal 
network security mission. And although officials throughout the 
administration have declared that election security is a priority, no 
one in the White House has been directed to coordinate a Federal 
response and it has never been a budget priority. Instead, this 
National security issue seems to be viewed as a ``hot potato'' in the 
President's inner circle, not worthy of a ``whole-of-Government'' 
approach. To complicate matters, all of this is happening in the 
absence of a White House Cybersecurity Coordinator, which the White 
House eliminated last year. The Mueller Report makes clear that our 
adversaries will continue to meddle in our elections. And DHS and FBI 
have issued numerous warnings about threats our adversaries--from 
Russia and China to Iran and North Korea--pose to our critical 
infrastructure.
    The threats we face are constantly evolving. Our technology must do 
the same. In short, the time has come for less talk and more action. If 
the White House won't lead, then Congress will. I am hopeful that our 
bipartisan efforts to secure the additional funding for CISA's 
cybersecurity activities will be successful, and I urge appropriators 
to reject the drastic cuts proposed to S&T's budget. As the Chairman of 
this subcommittee, I take my oversight responsibility of CISA and S&T 
seriously. That said, it's hard to do effective oversight when Congress 
has given an agency a mission that the President's budget doesn't fully 
support. In the mean time, I look forward to understanding how this 
committee can help CISA clarify its cybersecurity responsibilities 
among its interagency partners, particularly in the absence of a 
permanent Secretary. And I will be interested to know how we can 
support S&T's efforts to equip DHS components and first responders 
across the country with the technology they need to do their jobs 
better and safer.

    Mr. Richmond. Members of the committee are reminded that 
under the committee rules, opening statements may be submitted 
for the record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                             April 30, 2019
    Chairman Richmond, and Ranking Member Katko thank you for today's 
hearing on ``Resourcing DHS's Cybersecurity and Innovation Missions: A 
Review of the Fiscal Year 2020 Budget Request for the Cybersecurity and 
Infrastructure Security Agency and the Science and Technology 
Directorate.''
    I thank today's witnesses:
Panel 1
  <bullet> The Hon. Christopher C. Krebs, director, Cybersecurity and 
        Infrastructure Security Agency, U.S. Department of Homeland 
        Security; and
  <bullet> Mr. William Bryan, senior official performing the duties of 
        the under secretary for science and technology, Science and 
        Technology Directorate, U.S. Department of Homeland Security.
    This hearing will allow the committee to examine the President's 
fiscal year 2020 request for the Cybersecurity and Infrastructure 
Security Agency (CISA) and Science Technology Directorate (S&T) within 
the Department of Homeland Security.
    As hard as one person in our Government is working to stop cyber 
attacks there are likely another thousand attempting to breach a system 
or device owned by a United States citizen.
    Last September, former Secretary Kirstjen Nielsen stated that 
``cyber attacks have exceed the risk of physical attacks,'' yet the 
President's budget request fails to adequately prioritize DHS's 
cybersecurity mission.
    The fiscal year 2020 budget requests $1.608 billion in 
appropriations for all of CISA's activities excluding the Federal 
Protective Service (FPS), which is funded by fees.
    The fiscal year 2020 request is a $73 million cut from the fiscal 
year 2019 enacted levels of $1.681 billion.
    The President's budget makes cuts across CISA's missions.
    Cuts to Federal network security run counter to the objectives of 
the National Cyber Strategy, the DHS Cybersecurity Strategy, and the 
DHS Cybersecurity Strategy Implementation Plan.
    For example, the September 2018 National Cyber Strategy issued by 
the White House states that:

``The Administration will act to further enable the Department of 
Homeland Security (DHS) to secure Federal department and agency 
networks . . . This includes ensuring DHS has appropriate access to 
agency information systems for cybersecurity purposes and can take and 
direct action to safeguard systems from the spectrum of risks.'' It 
also states that the administration will ``continue to deploy 
centralized capabilities, tools, and services through DHS.''

    I find it baffling that this administration talks tough about 
cybersecurity but cuts funding to essential cybersecurity programs.
    The President's budget proposal neither seeks additional 
authorities to empower DHS to secure the .gov domain, nor does it seek 
additional funding to deploy centralized cybersecurity capabilities.
    As adversaries seeking to undermine our Nation's public elections 
and disrupt the cyber ecosystem that fuels our economy become more 
sophisticated and prolific, they must be outmatched by a capable and 
response DHS.
    The threats made possible by the internet are numerous and include:
  <bullet> Bot-nets;
  <bullet> Ransom-ware;
  <bullet> Zero Day Events;
  <bullet> Mal-ware;
  <bullet> Denial-of-Service Attacks;
  <bullet> Distributed Denial-of-Service Attacks;
  <bullet> Pharming;
  <bullet> Phishing;
  <bullet> Data Theft;
  <bullet> Data Breaches;
  <bullet> SQL Injection;
  <bullet> Man-in-the-middle Attack.
    The list goes on, but suffice it to say that as hard as one person 
in our Government is working to stop cyber attacks there are likely 
another thousand attempting to breach a system or device owned by a 
United States citizen.
    According to the Mueller Report and the report from our 
intelligence communities entitled, ``Background to Assessing Russian 
Activities and Intentions in Recent U.S. Elections: The Analytic 
Process and Cyber Incident Attribution.''
    Russia used every cyber espionage tool available to influence the 
outcome of the 2016 Presidential election to conduct a multi-faceted 
campaign that included theft of data; strategically-timed release of 
stolen information; production of fake news; and manipulation of facts 
to avoid blame.
    I have two concerns, which are:
  <bullet> the security and integrity of the elections process; and
  <bullet> the use of sophisticated cyber attacks fueled by botnets.
    I have been persistent in my efforts to protect the rights of 
disenfranchised communities in my district of inner-city Houston and 
across the Nation.
    Throughout my tenure in Congress, I have co-sponsored dozens of 
bills, amendments, and resolutions seeking to improve voters' rights at 
all stages and levels of the election process.
    This includes legislation aimed at:
    1. Increasing voter outreach and turnout;
    2. Ensuring both early and same-day registration;
    3. Standardizing physical and language accessibility at polling 
        places;
    4. Expanding early voting periods;
    5. Decreasing voter wait times;
    6. Guaranteeing absentee ballots, especially for displaced 
        citizens;
    7. Modernizing voting technologies and strengthening our voter 
        record systems;
    8. Establishing the Federal Election Day as a National holiday; and
    9. Condemning and criminalizing deceptive practices, voter 
        intimidation, and other suppression tactics.
    I also authored H.R. 745 in the 110th Congress, which added the 
legendary Barbara Jordan to the list of civil rights trailblazers whose 
names honor the Voting Rights Act Reauthorization and Amendments Act.
    This bill strengthened the original Voting Rights Act by replacing 
Federal voting examiners with Federal voting observers--a significant 
distinction that made it easier to safeguard against racially-biased 
voter suppression tactics.
    In the 114th Congress, I introduced H.R. 75, the Coretta Scott King 
Mid-Decade Redistricting Prohibition Act of 2015, which would prohibit 
States whose Congressional districts have been redistricted after a 
decennial census from redrawing their district lines until the next 
census.
    The voting rights struggles of the 20th Century are now joined by 
voting rights threats posed by the 21st Century.
    Russia an adversary of the United States, engaged in repeated 
attempts to interfere in the 2016 Presidential election, which prompted 
an unprecedented ``all-of-Government'' effort to alert local and State 
election administrators to be aware of the threat.
    Russia was reported to have breached 21 local and State election 
systems, with later reports suggesting this number was larger than 
initially reported.
    In February 2018, special counsel Robert Mueller released 
indictments of 13 Russians, at least one of whom has direct ties to 
Russian President Vladimir Putin.
    The Mueller Report was released and the most relevant sections 
dealing with Russia's interference using technology have been redacted.
    That Russia used cyber intrusions to attack United States political 
institutions to collect data to manipulate the media and the public 
with the purpose of influencing the outcome of the 2016 Presidential 
elections is now an undisputed fact.
    Because of what was known at the time, on January 6, 2017, Homeland 
Security Secretary Johnson, as one of his last official acts under the 
Obama administration, designated election systems as critical 
infrastructure, and created a new subsector under the existing 
Government Facilities Sector designation.
    On that same day, President-Elect Trump was briefed by the 
intelligence community that Vladimir Putin had directed the cyber 
attack on the United States of America.
    Since then, intelligence officials have continued to warn that 
foreign governments--including Russia, Iran, and China--could attempt 
to interfere in U.S. elections.
    In February 2018, 6 intelligence agency chiefs issued a dire 
warning about the Kremlin's on-going efforts to influence the U.S. 
elections.
    On January 29, 2019, the director of national intelligence 
testified before the Senate Select Committee on Intelligence that our 
adversaries ``probably already are looking to the 2020 U.S. elections 
as an opportunity to advance their interests.
    The House Committee on Homeland Security has the responsibility of 
providing for the cybersecurity of Federal civilian agencies as well as 
the security of the Nation's 16 critical infrastructure sectors from 
cyber and other threats.
    The Election Infrastructure Subsector covers a wide range of 
physical and electronic assets such as storage facilities, polling 
places, and centralized vote tabulation locations used to support the 
election process, and information and communications technology to 
include voter registration databases, voting machines, and other 
systems to manage the election process and report and display results 
on behalf of State and local governments.
    The work to secure our Nation's election system from cyber threats 
is on-going, which is why this hearing on the administration's 
cybersecurity budget priorities is relevant.
    The U.S. Department of Homeland Security's (DHS) mission in 
cybersecurity and infrastructure protection is focused on enhancing 
greater collaboration on cybersecurity across the 16 critical 
infrastructure sectors and the sharing of cyber threat information 
between the private sector and Federal, State, and local partners.
             botnet threat and the internet of things (iot)
    While connected devices are transforming our personal and working 
lives in a multitude of ways, they are also a growing security risk--
attackers are hijacking these devices and turning them into internet of 
things botnets.
    Botnet attacks have become commonplace, with CenturyLink Threat 
Research Lab estimating that 195,000 such attacks take place every day 
and Accenture putting the average cost at $390,752.
    As new wireless technologies enter the commercial and consumer 
space attackers are finding different ways to launch more complex and 
devastating exploits.
    The proliferation of IoT-enabled devices is making for new rich 
targets for attackers who are increasingly using IoT devices to build 
their botnets.
    We must be steadfast in our resolve to have a strong shield to 
defend civilian and critical infrastructure networks for all threats 
foreign and domestic.
    We must develop an effective deterrent to foreign tampering in our 
domestic affairs and especially in the critical area of local, State, 
or Federal public elections.
    I look forward to the testimony of today's witnesses. Thank you.

    Mr. Richmond. We now have Mr. Katko to read his opening 
statement.
    Mr. Katko. Thank you, Mr. Chairman, for holding this 
hearing. Thank you to our distinguished witnesses for being 
here today, Mr. Krebs and Mr. Bryan.
    So also, thank you to the Chair of is the whole committee, 
Mr. Thompson, for being here, as well.
    Our Nation faces digital and physical threats daily, 
hourly, by the minute, by the second, really, that have the 
potential to disrupt, damage, and destroy their targets.
    These threats are only growing in magnitude, frequency, and 
sophistication in the years ahead. We have had several major 
attacks in my district alone in the last few weeks. They are 
going to continue, obviously.
    The Federal Government must work with partners across the 
public and private sectors, not only to prevent and deter 
current threats, but also to evolve to meet those of the 
future.
    Congress recognizes the need, and last year passed the 
Cybersecurity and Infrastructure Security Agency Act of 2018.
    This act created the Cybersecurity and Infrastructure 
Security Agency, or CISA for short, to serve as the Nation's 
risk adviser, providing for the timely sharing of information, 
analysis, and assessment and facilitating mitigation and 
resilience, building to partners across Government and 
industries.
    Their motto is to ``Defend today and Secure tomorrow.'' 
Their mission is expansive. CISA is responsible for securing 
the civilian Federal networks, comprised of 99 civilian 
agencies, monitoring emerging threats across sectors 24/7/365, 
securing our Nation's chemical facilities, partnering with 
public and private sector to protect soft targets in crowded 
places, and identifying and addressing risks to our National 
critical functions.
    It is crucial that CISA has a budget and the human capital 
necessary to be successful. Today, we will take a closer look 
at their plans and how they intend to carry out and achieve 
their mission.
    I am also interested in hearing from National critical 
functions' list in the new binding operational directive 
release today.
    Today, we also will hear from the Science and Technology 
Directorate for S&T, about how they plan to execute their 
mission in the year ahead. S&T, through partnerships within the 
Federal Government, academia and industry, develops innovative 
solutions to aid the Department of Homeland Security in 
achieving its mission more effectively, efficiently, and 
affordably.
    Like my colleague, the Chair of this committee, said, Mr. 
Richmond, there is bipartisan support to increasing your 
budgets. We understand the critical function you play. We 
understand that you need more money to be able to do it 
properly. I fully support that notion.
    I look forward to hearing from both of our witnesses and my 
colleagues to see how we can work together to ensure that 
Homeland Security is capable of protecting our Nation from 
digital and physical threats.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
                             April 30, 2019
    Our Nation faces digital and physical threats daily that have the 
potential to disrupt, damage, and destroy their targets. These threats 
will only grow in magnitude, frequency, and sophistication in the years 
ahead.
    The Federal Government must work with partners across the public 
and private sectors not only to prevent and deter current threats, but 
also to evolve to meet those of the future.
    Congress recognized this need and last year passed the 
Cybersecurity and Infrastructure Security Agency Act of 2018. This Act 
created the Cybersecurity and Infrastructure Security Agency, or CISA, 
to serve as the Nation's risk advisor, providing for the timely sharing 
of information, analysis, and assessment, and facilitating mitigation 
and resilience building to partners across Government and industries.
    Their motto is to ``Defend today and Secure tomorrow,'' and their 
mission is expansive.
    CISA is responsible for: Securing the civilian Federal networks, 
comprised of 99 civilian agencies; monitoring emerging threats across 
sectors 24/7/365; securing our Nation's chemical facilities, partnering 
with public and private sector to protect soft targets and crowded 
places; and identifying and addressing risks to our National critical 
functions.
    It is critical that CISA has the budget and the human capital 
necessary to be successful.
    Today we will take a closer look at their plans and how they intend 
to carry out and achieve their mission.
    Today we also will hear from the Science and Technology 
Directorate, or S&T, about how they plan to execute their mission in 
the year ahead.
    S&T, through partnerships within the Federal Government, academia, 
and industry, develops innovative solutions to aid the Department of 
Homeland Security in achieving its mission more effectively, 
efficiently, and affordably.
    I look forward to hearing from both our witnesses and my colleagues 
to see how we can work together to ensure DHS is capable of protecting 
our Nation from digital and physical threats.

    Mr. Katko. Before I yield back, Mr. Chairman, I want to ask 
that we add Congressman Rogers' written testimony to the 
record, since he was unable to be here.
    Mr. Richmond. Without objection.
    [The statement of Ranking Member Rogers follows:]
                 Statement of the Honorable Mike Rogers
                             April 30, 2019
    Thank you, Mr. Chairman, for holding this hearing, and to our 
witnesses for being here today.
    The threat landscape is continuing to evolve both in the cyber and 
physical space. Threats can be technological, man-made, or natural, and 
can emerge from nation-states, criminal organizations, terrorists, and 
others seeking to cause havoc.
    In our increasingly connected world, even the most seemingly 
unsophisticated of threats has the potential to do great damage.
    The Cybersecurity and Infrastructure Security Agency partners with 
all levels of government and across industries to better manage and 
mitigate risk to secure against these threats.
    CISA is spearheading initiatives to secure our supply chain, 
working with States to protect our elections, monitoring networks, 
securing chemical facilities and planning and preparing for emerging 
threats.
    CISA's work is critical and I was pleased to join with Chairman 
Thompson to request an increase to CISA's funding for this upcoming 
year.
    I look forward to hearing from CISA about their plans to defend 
today and secure tomorrow.
    Thank you to S&T for appearing before us today. I look forward to 
hearing from you on the fiscal year 2020 budget request.
    Thank you and I yield back.

    Mr. Katko. With that, Mr. Chairman, I yield back.
    Mr. Richmond. I now recognize the Chairman of the full 
Committee on Homeland Security, Mr. Bennie Thompson, from 
Mississippi for an opening statement.
    Mr. Thompson. Thank you, Mr. Chairman. Thank our witnesses 
for their presence today.
    I am pleased to have the opportunity to examine an issue 
critical to our National security posture, the budget requests 
for the Cybersecurity Infrastructure Security Agency, CISA, and 
the Science and Technology Directorate.
    The past month at the Department of Homeland Security has 
been a tumultuous one. The President dismissed the Secretary, 
the under secretary for management, the director of the Secret 
Service, and the acting director of Immigration and Customs 
Enforcement.
    At the same time, the Mueller report, even in its redacted 
form, crystalizes the threats of foreign election interference, 
as the 2020 elections approach.
    Over the weekend, 1 person died and 3 were injured during a 
Passover services at a California synagogue, 6 months to the 
day of the Pittsburgh synagogue shooting that killed 11, 
underscoring the growing threat of domestic terrorism at the 
hands of emboldened white nationalists, as we are a month away 
from hurricane season, and there is no Senate-confirmed FEMA 
administrator.
    In short, the Nation is facing increasingly complex 
threats, and requires sturdy leadership to confront them. That 
is why I am pleased that Director Krebs and Acting Under 
Secretary Bryan are here to talk about the budgets for 
components charged with leading civilian cybersecurity efforts, 
protecting critical infrastructure and developing technologies 
that make us safer and more secure.
    For the record, I have serious concerns regarding the 
President's fiscal year 2020 budget request for both CISA and 
S&T. Last September, the former DHS Secretary observed that 
cyber attacks now exceed the risk of physical attacks. Since 
the President submitted his last budget request, the FBI and 
DHS issued a joint technical alert warning about Russian cyber 
attacks against critical infrastructure.
    Ransomware attacks have already wreaked havoc on local 
governments from Atlanta to Albany, and the Federal Government 
announced that the Chinese government engaged in a 12-year 
cyber espionage campaign targeting intellectual property and 
trade secrets.
    The list is far from complete. After each incident, we have 
looked at CISA to help us understand and mitigate the 
consequences and secure the ecosystem from future attacks.
    Moving forward, we look to CISA to continue its work 
improving the cybersecurity posture of 99 Federal agencies, 
ensure a secure 5G rollout, and help State and local 
governments keep bad actors out of our election systems.
    Yet, the President's budget would decrease funding for 
CISA's cybersecurity budget from fiscal year 2019 levels. In a 
context of the current threat environment, even level funding 
is as dangerous as a cut.
    I commend CISA's leadership for proactively attacking many 
of these threats head-on, including by making its cybersecurity 
capabilities available to Presidential campaigns.
    The Mueller report provided for greater details on the 
scale and scope of Russian election interference efforts, 
particularly, how the Russians manipulated and hacked 
information from campaigns to sow deeds of discord and sway 
votes.
    I am glad that CISA is willing to do its part to prevent 
all forms of election interference. But I am worried that we 
are writing checks in this fiscal year 2020 budget that we 
can't cash, especially given its important responsibilities to 
other critical infrastructure sectors.
    Toward that end, I will be interested to know the level of 
engagement CISA will be able to undertake under the budget 
request, and how it will grow its support if Congress provided 
additional funding.
    I would also like to raise concern about the funding level 
requested for S&T. For too long, we have deferred investment in 
innovative security technologies to fund operation in funding 
the President's Southern Border wall.
    But these cuts have consequences, from reducing first-
responder training and technology, testing opportunities, by 
closing National urban security technology laboratories, to 
shrinking homeland security researcher communities, by cutting 
university programs and Centers of Excellence.
    The program fiscal year 2020 budget shortchanges the future 
for political wins today. I will fight to restore funding to 
improve innovation activities at S&T.
    With that, Mr. Chairman, I thank the witnesses, again, for 
being here. I yield back the balance of my time.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             April 30, 2019
    I am pleased to have the opportunity to examine an issue critical 
to our National security posture: The budget request for the 
Cybersecurity and Infrastructure Security Agency (CISA) and the Science 
and Technology Directorate. The past month at the Department of 
Homeland Security has been a tumultuous one. The President dismissed 
the Secretary, the under secretary for management, the director of 
Secret Service, and the acting director of Immigration and Customs 
Enforcement. At the same time, the Mueller Report--even in its redacted 
form--crystalizes the threat of foreign election interference as the 
2020 elections approach.
    Over the weekend, 1 person died and 3 were injured during Passover 
services as a California synagogue--6 months to the day of the 
Pittsburgh synagogue shooting the killed 11--underscoring the growing 
threat of domestic terrorism at the hands of emboldened white 
nationalists. And we are a month away from hurricane season and there 
is no Senate-confirmed FEMA administrator. In short, the Nation is 
facing increasingly complex threats and requires steady leadership to 
confront them. That is why I am pleased that Director Krebs and Acting 
Under Secretary Bryan are here to talk about the budgets for components 
charged with leading civilian cybersecurity efforts, protecting 
critical infrastructure, and developing technologies that make us safer 
and more secure.
    For the record, I have serious concerns regarding the President's 
fiscal year 2020 budget request for both CISA and S&T. Last September, 
the former DHS Secretary observed that ``that cyber attacks now exceed 
the risk of physical attacks.'' Since the President submitted his last 
budget request:
  <bullet> the FBI and DHS issued a joint technical alert warning about 
        Russian cyber attacks against critical infrastructure;
  <bullet> ransomware attacks have wreaked havoc on local governments 
        from Atlanta to Albany; and,
  <bullet> the Federal Government announced that the Chinese government 
        engaged in a 12-year cyber espionage campaign targeting 
        intellectual property and trade secrets.
    This list is far from complete, and after each incident, we have 
looked to CISA to help us understand and mitigate the consequences and 
secure the ecosystem from future attacks. Moving forward, we will look 
to CISA to continue its work improving the cybersecurity posture of 99 
Federal agencies, ensure a secure 5G rollout, and help State and local 
governments keep bad actors out of their election systems. Yet the 
President's budget would decrease funding for CISA's cybersecurity 
budget from fiscal year 2019 levels. In the context of the current 
threat environment, even level funding is as dangerous as a cut. I 
commend CISA leadership for proactively tackling many of these threats 
head-on, including by making its cybersecurity capabilities available 
to Presidential campaigns. The Mueller Report provided far greater 
detail on the scale and scope of Russian election interference efforts, 
particularly how the Russians manipulated hacked information from 
campaigns to sow discord and sway votes. I am glad that CISA is willing 
to do its part to prevent all forms of election interference. But I'm 
worried it is writing checks its fiscal year 2020 budget can't cash, 
especially given its important responsibilities to other critical 
infrastructure sectors. Toward that end, I will be interested to know 
the level of engagement CISA would be able to undertake under the 
budget request and how it would grow its support if Congress provided 
additional funding.
    I would also like to raise concerns about funding level requested 
for S&T. For too long, we have deferred investments in innovative 
security technologies to fund operations and funding the President's 
Southern Border wall. But these cuts have consequences. From reducing 
first responder training and technology-testing opportunities by 
closing National Urban Security Technology Laboratory to shrinking 
homeland security researcher community by cutting university programs 
and Centers of Excellence, the President's fiscal year 2020 budget 
shortchanges the future for political wins today. I will fight to 
restore funding to important innovation activities at S&T.

    Mr. Richmond. Thank you, Mr. Chairman.
    I will now welcome our panel of witnesses.
    First, I would like to welcome Chris Krebs, the director of 
the DHS Cybersecurity and Infrastructure Security Agency, back 
to testify before this panel.
    Director Krebs has been at the helm of the DHS's 
cybersecurity activity since 2017. He has been an integral 
player in shaping and developing the Department's election 
security capabilities.
    I would also like to welcome William Bryan, the senior 
official performing the duties of the under secretary, who has 
been leading the Science and Technology Directorate since May 
2017.
    Prior to his service at DHS, Mr. Bryan held multiple 
leadership roles at the Department of Energy and Department of 
Defense.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his statements for 5 
minutes, beginning with Director Krebs.

STATEMENT OF CHRISTOPHER C. KREBS, DIRECTOR, CYBERSECURITY AND 
  INFRASTRUCTURE SECURITY AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Krebs. Chairman Richmond, Ranking Member Katko, and 
Members of the subcommittee, thank you for today's opportunity 
to testify regarding the Cybersecurity and Infrastructure 
Security Agency, or CISA's, 2020 budget request.
    CISA leads the National effort to safeguard and secure 
Federal networks and critical infrastructure from cyber and 
physical threats. In this sense, we serve as the Nation's risk 
adviser.
    To further our efforts in this mission, it is critical that 
across Government industry we have clarity and common sense and 
purpose on what it is we need to protect. Earlier today I 
announced that we reached a new milestone within CISA, by 
identifying a set of National critical functions.
    The NCFs are functions of Government in the private sector 
so vital to the United States that their disruption, 
corruption, or dysfunction would have a debilitating effect on 
security, National economic security, National public health or 
safety, or any combination thereof.
    NCFs represent an evolution in the Nation's risk management 
efforts by focusing on how entities or organizations enable 
functions or services across the economy, allowing for a better 
understanding of cross-cutting risk factors in the increasingly 
interdependent nature of connected infrastructure.
    The National critical function's effort is just one example 
of how CISA is leading the Nation's risk management efforts and 
will serve as a road map to guide CISA activities in the coming 
years.
    Today, I would like to briefly touch on five of those 
activities; protection of Federal networks, election security, 
operational technology, supply chain risk management, and soft-
target security.
    Across the Federal Government, we have better I.T. 
capabilities Government-wide. We are on a path to 
standardization, and leadership awareness at the Cabinet level 
is increasing.
    By issuing guidance or directives to Federal agencies, 
providing tools and services and implementing cybersecurity 
initiatives, we are protecting Government and critical 
infrastructure networks from malicious actors.
    Binding operational directives have yielded significant 
results for Federal cybersecurity. For instance, we have 
reduced the time agencies were taking to patch critical 
vulnerabilities from an average of 219 days in 2015, to an 
average around 20 days today. In many cases, that is better 
than industry. But we can do better.
    Yesterday, I issued an updated directive requiring even 
shorter mitigation time frames for a broader category of 
vulnerabilities.
    In January, we also issued an emergency directive to 
protect Federal networks from a global campaign tampering with 
the internet's phonebook, known as DNS. This year's budget will 
develop efforts to centralize DNS resolution for the Federal 
Government.
    Perhaps the highest-profile threat today is attempts by 
nation-state actors to interfere in our elections. Over the 
last 2 years, we have become close partners with the election 
community.
    Our efforts to protect 2020 are already under way. We will 
focus on broadening the reach and depth of our assistance, 
emphasizing the criticality of election auditability, 
prioritizing the need to patch vulnerabilities, and developing 
locality-specific cybersecurity profiles.
    Operational technologies, such as industrial control 
systems, are those components that operate our critical 
infrastructure. The increasing integration and connectivity of 
these technologies has vastly increased the potential impact of 
cyber threats.
    Included in this year's budget is a request for a voluntary 
pilot that will deploy network sensors to detect malicious 
activity on critical infrastructure networks, including 
industrial control systems.
    Next, supply chain security is also critical to managing 
risk. CISA chairs DHS's seat on the Federal Acquisition 
Security Council. This council, established by law last 
December, will provide a coordinated approach across the 
Federal Government to supply chain security.
    Our success depends on collaboration with industry experts, 
though. CISA's supply chain risk management task force has 
brought together 20 Federal agencies and 40 of the largest 
companies in the information technology and communications 
sectors to reach consensus on how to best manage risk.
    CISA also remains focused on physical threats. On Saturday, 
we were once again deeply saddened to learn of the tragic 
shooting in a synagogue in Poway, California.
    Far too often, our Nation is confronted with another 
violent attack on places such as entertainment venues and 
places of worship or schools. Earlier this month, CISA updated 
and released a resource guide on securing such soft targets and 
crowded places.
    Before closing, research and development is critical to 
CISA's mission. CISA and S&T are committed to effective 
coordination on R&D. We are working together on R&D for cyber 
data analytics, and we will make R&D investments in mobile 
security to include emerging 5G security requirements.
    We are also looking at innovative approaches to securing 
soft targets and crowded places from attacks.
    In closing, I would like to thank the committee for its 
continued support of CISA and our mission. The authorities and 
resources provided over the years have helped raise this 
baseline of cybersecurity and mitigated countless threats to 
Federal networks and critical infrastructure. Thank you.
    [The prepared statement of Mr. Krebs follows:]
               Prepared Statement of Christopher C. Krebs
                             April 30, 2019
    Chairman Richmond, Ranking Member Katko, and distinguished Members 
of the subcommittee, thank you for the opportunity to testify regarding 
the fiscal year 2020 President's budget for the U.S. Department of 
Homeland Security's (DHS) Cybersecurity and Infrastructure Security 
Agency (CISA). The fiscal year 2020 President's budget of $3.17 billion 
for CISA, which includes $1.6 billion in budget authority for fees 
collected from Federal agencies in support of the Federal Protective 
Service, reflects our commitment to safeguard our homeland, our values, 
and our way of life.
    CISA strengthens the cybersecurity of Federal networks and 
increases the security and resilience of our Nation's critical 
infrastructure. Safeguarding and securing cyber space is a core DHS 
mission. The fiscal year 2020 President's budget recognizes the 
criticality of this mission and ensures the men and women of CISA have 
the resources they need to achieve it.
    CISA's mission is to defend against the threats of today, while 
working with partners across all levels of Government and the private 
sector to secure against the evolving risks of tomorrow--``Defend 
Today, Secure Tomorrow.''
    In passing the Cybersecurity and Infrastructure Security Agency Act 
of 2018, Congress recognized that CISA's role in fostering 
collaboration between and across Government and the private sector has 
never been more important. The threats from cyber attacks and terrorist 
activities to natural disasters are more complex, and the threat actors 
more diverse than at any point in our history.
                            cisa priorities
    Nefarious actors want to disrupt our way of life. Many are inciting 
chaos, instability, and violence. At the same time, the pace of 
innovation, our hyper-connectivity, and our digital dependence has 
opened cracks in our defenses, creating new vectors through which our 
enemies and adversaries can strike us. This is a volatile combination, 
resulting in a world where threats are more numerous, more widely 
distributed, highly networked, increasingly adaptive, and incredibly 
difficult to root out.
    CISA is strengthening our digital defense as cybersecurity threats 
grow in scope and severity. The fiscal year 2020 President's budget 
continues investments in Federal network protection, proactive cyber 
protection, and infrastructure security.
    CISA, our Government partners, and the private sector, are all 
engaging in a more strategic and unified approach toward improving our 
Nation's defensive posture against malicious cyber activity. In May 
2018, DHS published the Department-wide DHS Cybersecurity Strategy, 
outlining a strategic framework to execute our cybersecurity 
responsibilities during the next 5 years. Both the Strategy and 
Presidential Policy Directive 21--Critical Infrastructure Security and 
Resilience emphasize an integrated approach to managing risk.
    CISA ensures the timely sharing of information, analysis, and 
assessments to build resilience and mitigate risk from cyber and 
physical threats to infrastructure. CISA's partners include 
intergovernmental partners, the private sector, and the public. Our 
approach is fundamentally one of partnerships and empowerment, and it 
is prioritized by our comprehensive understanding of the risk 
environment and the corresponding needs of our stakeholders. We help 
organizations manage their risk better.
    Cybersecurity operations at CISA detect, analyze, mitigate, and 
respond to cybersecurity threats. We share cybersecurity risk 
mitigation information with Government and non-Government partners. By 
issuing guidance or directives to Federal agencies, providing tools and 
services to all partners, and leading or assisting the implementation 
of cross-Government cybersecurity initiatives, we are protecting 
Government and critical infrastructure networks.
    The fiscal year 2020 President's budget includes $694 million for 
Federal network protection, which includes Continuous Diagnostics and 
Mitigation (CDM), National Cybersecurity Protection System (NCPS), and 
Federal Network Resilience. These programs provide the technological 
foundation to secure and defend the Federal Government's information 
technology against advanced cyber threats.
    NCPS is an integrated system-of-systems that delivers intrusion 
detection and prevention, analytics, and information-sharing 
capabilities. NCPS primarily protects traffic flowing into and out of 
Federal networks. One of its key technologies is the EINSTEIN intrusion 
detection and prevention sensor set. This technology provides the 
Federal Government with an early warning system, improves situational 
awareness of intrusion threats, near-real time detection and prevention 
of malicious cyber activity.
    CDM provides Federal network defenders with a common set of 
capabilities and tools they can use to identify cybersecurity risks 
within their networks, prioritize based on potential impact, and 
mitigate the most significant risks first. The program provides Federal 
agencies with a risk-based and cost-effective approach to mitigating 
cyber risks inside their networks. The fiscal year 2020 President's 
budget includes funding to continue deployment and operation of 
necessary tools and services for all phases of the CDM program. By 
pooling requirements across the Federal space, CISA is able to provide 
agencies with flexible and cost-effective options to mitigate 
cybersecurity risks and secure their networks.
    Within the President's fiscal year 2020 budget, $4.8 million over 
the fiscal year 2019 request is included to support our 
responsibilities to improve the cybersecurity of high-value assets 
within the Federal Government. With improved governance, CISA can 
ensure that Federal agencies are managing cybersecurity risk at a level 
commensurate with each agency's own risk tolerance and that of the 
Federal Government. These efforts will ensure that agencies achieve a 
minimum cybersecurity baseline through assessments, technical 
assistance, and architectural and design support.
    The fiscal year 2020 President's budget also includes an increase 
of $4.4 million to begin development efforts to centralize the 
authoritative Domain Name System (DNS) resolution services for the 
Federal Government. The managed service will provide centralized DNS 
management for the Federal Government and a rich set of analytics that 
sit on top of traditional DNS services.
    The fiscal year 2020 President's budget includes $371 million for 
proactive cyber protection. Within this category, approximately $248 
million is dedicated to CISA's National Cybersecurity and 
Communications Integration Center (NCCIC). The NCCIC is CISA's 
operational cybersecurity center, and it provides capacity for the U.S. 
Government to respond rapidly to multiple significant incidents or 
risks. The NCCIC operates 24 hours a day, 7 days a week at the 
intersection of the Federal Government, State and local governments, 
the private sector, international partners, law enforcement, 
intelligence, and defense communities. The NCCIC provides a broad range 
of information-sharing and technical assistance capabilities to assist 
Government and private-sector entities across all 16 sectors of 
critical infrastructure. In addition to information sharing and 
incident response, these capabilities include assessments and technical 
services, such as vulnerability scanning and testing, penetration 
testing, phishing assessments, and red-teaming on operational 
technology that includes the industrial control systems which operate 
our Nation's critical infrastructure, as well as recommended 
remediation and mitigation techniques that improve the cybersecurity 
posture of our Nation's critical infrastructure.
    Within the proactive cyber protection funding, $11 million is 
included to support the CyberSentry pilot. This voluntary pilot program 
is designed to detect malicious activity on private-sector critical 
infrastructure networks, including operational technology, such as 
industrial control systems. The pilot will utilize network sensor 
systems to detect threats; collect threat data; increase the speed of 
information sharing; and produce real-time, effective, actionable 
information to the companies vulnerable to malicious attacks.
    The fiscal year 2020 President's budget request also includes $24.1 
million for State and local government cybersecurity and infrastructure 
assistance prioritized for election security. These resources will 
institutionalize and mature CISA's election security risk-reduction 
efforts, allowing the agency to continue providing vulnerability 
management services such as cyber hygiene scans, and on-site or remote 
risk and vulnerability assessments, organizational cybersecurity 
assessments, proactive adversary hunt operations; and enhanced threat 
information sharing with State and local election officials.
    The fiscal year 2020 President's budget fully funds CISA's risk 
management activities, including $68 million for the National Risk 
Management Center (NRMC). The NRMC is a planning, analysis, and 
collaboration center working to identify and address the most 
significant risks to our Nation's critical infrastructure. Included 
within the fiscal year 2020 President's Budget is a realignment of 
$18.4 million to consolidate core risk management programs under 
unified leadership. NRMC is working to publish the National Critical 
Functions (NCFs) list, which will enable the Federal Government and our 
partners to prioritize risk management actions.
    For infrastructure security, the fiscal year 2020 President's 
budget includes $246 million for protecting critical infrastructure 
from physical threats through informed security decision making by 
owners and operators of critical infrastructure. Activities include 
conducting assessments, facilitating exercises, and providing training 
and technical assistance Nation-wide. The program leads and coordinates 
National efforts on critical infrastructure security and resilience by 
developing strong and trusted partnerships across the Government and 
private sector. This includes reducing the risk of a successful attack 
on soft targets and crowded places, including on our Nation's schools, 
and from emerging threats such as unmanned aircraft systems. The budget 
also includes a $1 million increase for the Bomb-Making Materials 
Awareness Program. This increase will expand capability to detect and 
disrupt terrorist attacks before they occur by transitioning effort to 
a fully-funded program of record. The funds will build a service 
delivery approach that achieves the scale necessary to have a strategic 
impact.
    The fiscal year 2020 President's budget includes $167 million for 
emergency communications to ensure real-time information sharing among 
first responders during all threats and hazards. CISA enhances public 
safety interoperable communications at all levels of government across 
the country through training, coordination, tools, and guidance. We 
lead the development of the National Emergency Communications Plan to 
maximize the use of all communications capabilities available to 
emergency responders--voice, video, and data--and ensures the security 
of data and information exchange. CISA assists emergency responders and 
relevant Government officials with communicating over commercial 
networks during natural disasters, acts of terrorism, and other man-
made disasters.
    The fiscal year 2020 President's budget includes $1.6 billion in 
budget authority for the Federal Protective Service (FPS). FPS provides 
law enforcement and protective security services to Federally-owned, -
leased, or -operated facilities. FPS provides a comprehensive, risk-
based approach to facility protection that allows it to prioritize 
operations to prevent, detect, assess, respond to, and disrupt criminal 
and other incidents that endanger Federal facilities and people on 
their properties. Federal agencies pay fees to FPS for the services 
they provide, and the fiscal year 2020 President's budget includes the 
rollout of a new fee model. The new fee model more accurately bills 
customers for the security services they need, and puts FPS on a path 
toward a more sustainable path than the previous cost-per-square-foot 
model.
    Finally, the fiscal year 2020 President's budget also provides $224 
million to consolidate CISA in a new state-of-the-art headquarters 
facility at DHS's St. Elizabeths Campus. CISA currently must operate 
from 8 different locations spread across the National Capital Region, a 
physical layout that poses challenges to leadership command and control 
requirements and which contributes to administrative and travel 
inefficiencies. Additionally the existing facilities do not have the 
capacity to fully meet CISA's requirements, and most of the leases 
expire in the next 4 years. Congress previously approved $120 million 
for St. Elizabeths construction in fiscal year 2019 which, in 
combination with $130 million in available carryover funds, will be 
used to construct the core shell for the new CISA headquarters 
building. The fiscal year 2020 funds are included in the DHS Management 
Directorate's budget and will be used for the build-out of tenant 
spaces, including information technology, electronic physical security, 
outfitting and other requirements important to maximizing CISA's 
ability to succeed.
                    a case study: election security
    One of the highest-profile threats we face today is attempts by 
nation-state actors to maliciously interfere in our democratic 
elections. Leading up to the 2018 midterm elections, DHS worked hand-
in-hand with Federal partners, State and local election officials, and 
private-sector vendors to provide them with information and 
capabilities to enable them to better defend their infrastructure. This 
partnership led to successful implementation of a model that helps 
illustrate how CISA's cyber and critical infrastructure security 
missions complement each other, and the critical role CISA plays in 
bringing stakeholders at all levels together to address a common 
threat. We are now working to build upon these efforts during the 2020 
election cycle.
    In the weeks leading up to the 2018 mid-term elections, over 500 
CISA employees supported election security preparedness Nation-wide. 
CISA provided free technical cybersecurity assistance, continuous 
information sharing, and expertise to election offices and campaigns. 
Elections Infrastructure Information Sharing and Analysis Center (EI-
ISAC) threat alerts were shared with all 50 States, over 1,400 local 
and territorial election offices, 6 election associations, and 12 
election vendors.
    In August 2018, CISA hosted a ``Tabletop the Vote'' exercise, a 3-
day, first-of-its-kind event to assist Federal partners, State and 
local election officials, and private-sector vendors in identifying 
best practices and areas for improvement in cyber incident planning, 
preparedness, identification, response, and recovery. Through 
simulation of a realistic incident scenario, exercise participants 
discussed and explored potential impacts to voter confidence, voting 
operations, and election integrity. Partners for this exercise included 
44 States and the District of Columbia; the Election Assistance 
Commission (EAC); the Department of Defense; Department of Justice; 
Federal Bureau of Investigation; Office of the Director of National 
Intelligence; National Institute of Standards and Technology (NIST); 
National Security Agency; and the U.S. Cyber Command.
    Through the ``Last Mile Initiative,'' CISA worked closely with 
State and local governments to outline critical cybersecurity actions 
that should be implemented at the county level. This effort partnered 
CISA with State governments to produce county-specific cybersecurity 
snapshot posters. The posters contained valuable information for 
auditors, staff, and voters, including a checklist and time line 
election officials should follow to ensure security of the elections in 
their county. For political campaigns, CISA disseminated a 
cybersecurity best practices checklist to help candidates and their 
teams better secure their devices and systems.
    On Election Day, CISA deployed field staff across the country to 
maintain situational awareness and connect election officials to 
appropriate incident response professionals, if needed. In many cases, 
these field staff were co-located with election officials in their own 
security operations centers. CISA also hosted the National 
Cybersecurity Situational Awareness Room, an on-line portal for State 
and local election officials and vendors that facilitates rapid sharing 
of information which gave election officials virtual access to the 24/7 
operational watch floor of the NCCIC. This setup allowed CISA to 
monitor potential threats across multiple States at once and respond in 
a rapid fashion.
    CISA goals for the 2020 election cycle include improving the 
efficiency and effectiveness of election audits, continued 
incentivizing the patching of election systems, and working with States 
to develop cybersecurity profiles utilizing the NIST framework. We will 
also continue to engage any political entity that wants our help. CISA 
offers these entities the same tools and resources that we offer to 
State and local election officials, including trainings, cyber hygiene 
support, information sharing, and other resources.
    CISA has made tremendous strides and remains committed to working 
collaboratively with those on the front lines of administering our 
elections to secure election infrastructure from risks. In February, 
CISA officials provided updates to election officials on the full 
package of security resources that are available from the Federal 
Government, along with a roadmap on how to improve coordination across 
these entities. CISA also worked with our intelligence community 
partners to provide a Classified briefing for these individuals 
regarding the current threats facing our election infrastructure.
    We will remain transparent and agile in combating threats and 
securing our physical and cyber infrastructure. However, we recognize 
that there is a significant technology deficit across State, local, 
Tribal, and territorial governments, and State and local election 
systems, in particular. It will take significant and continual 
investment to ensure that election systems across the Nation are 
upgraded and secure, with vulnerable systems retired. These efforts 
require a whole-of-Government approach. The President and this 
administration are committed to addressing these risks.
                               conclusion
    In the face of increasingly sophisticated threats, CISA employees 
stand on the front lines of the Federal Government's efforts to defend 
our Nation's Federal networks and critical infrastructure. The threat 
environment is complex and dynamic with interdependencies that add to 
the challenge. As new risks emerge, we must better integrate cyber and 
physical risk in order to effectively secure the Nation. CISA 
contributes unique expertise and capabilities around cyber-physical 
risk and cross-sector critical infrastructure interdependencies.
    I recognize and appreciate this committee's strong support and 
diligence as it works to resource CISA in order to fulfill our mission. 
Your support over the past few years has helped bring additional 
Federal departments and agencies into NCPS more quickly, speed 
deployment of CDM tools and capabilities, and build out our election 
security efforts. We at CISA are committed to working with Congress to 
ensure our efforts cultivate a safer, more secure, and resilient 
homeland while also being faithful stewards of the American taxpayer's 
dollars.
    Thank you for the opportunity to appear before the subcommittee 
today, and I look forward to your questions.

    Mr. Richmond. Thank you for your testimony.
    I now recognize Mr. Bryan to summarize his statement for 5 
minutes.

  STATEMENT OF WILLIAM BRYAN, SENIOR OFFICIAL PERFORMING THE 
     DUTIES OF THE UNDER SECRETARY, SCIENCE AND TECHNOLOGY 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Bryan. Good afternoon, Chairman Richmond, Chairman 
Thompson, Ranking Member Katko, and distinguished Members of 
the subcommittee.
    Thank you for inviting me here today to testify on the 
President's budget request for fiscal year 2020, which includes 
a request for $582.1 million for the Science and Technology 
Directorate within the U.S. Department of Homeland Security.
    The Department's research and development activities 
support a broad range of DHS missions, including domain threat 
awareness, delivering mitigation strategies and creating novel 
technology and approaches for components, first responders, and 
other partners across the homeland security enterprise.
    Our customers put their lives on the line every day to keep 
our Nation safe and having the correct tools, techniques, and/
or technologies can be vital to the operators' safety and 
success.
    We must enable efficient, effective, and secure operations 
across all homeland security missions by applying timely 
scientific, engineering, and innovative solutions through 
research, design, test and evaluation, and acquisition support.
    Therefore, it is my mandate to ensure an efficient, 
effective, and nimble organization is in place to address the 
R&D needs of the Department and our partners. Whether through 
the identification of existing technologies or the timely 
development of new technology, S&T can provide them with the 
tools they need to safely and effectively protect the homeland 
and the American people.
    On October 1, 2018, I revitalized our structures, 
processes, and procedures, setting the foundation for S&T to be 
more agile and responsive, ready to move quickly in response of 
changes in the threat environment and to make use of existing 
technologies that can be adapted and leveraged to expedite the 
development of vital capabilities.
    The revitalization strengthens our relationships to DHS 
components, first responders, and our customers, and results in 
a more integrated approach to innovation, requirements 
gathering, and problem solving.
    I have realigned current R&D projects and funding to 
support the Department's key priorities going forward. For 
example, the opioid detection project to support CBP, the next-
generation explosives trace detection program to support TSA 
and our abilities to support counter-unmanned aircraft systems' 
efforts across the Department.
    Another key priority is cybersecurity. The 2018 DHS 
cybersecurity strategy emphasizes the importance of robust, 
cross-departmental cybersecurity R&D.
    The fiscal year 2020 budget request proposes that most of 
DHS's cyber research and development resources are included in 
CISA's request. Over the last 8 months, CISA and S&T have 
collaborated on a plan for execution of the fiscal year 2019 
funding in addition to the future year portfolio planning for 
2020 and beyond.
    Our teams, jointly, have identified, prioritized, and 
validated research and development priorities for the S&T work 
program, each of which can be mapped to a Departmental 
cybersecurity priority.
    It should be noted that CISA is not our only customer for 
cybersecurity R&D since many of our activities with other 
components have a cyber nexus that must be addressed.
    The fiscal year 2020 request continues to support S&T's 
Silicon Valley Innovation Program, or SVIP, which leverages 
innovative commercial capabilities from across the country 
through non-traditional Government contractors to rapidly 
deliver technology that meets validated component requirements.
    To date, over 400 small business have applied to 
participate in SVIP solicitations. S&T has worked with 35 small 
start-up companies and leveraged over $400 million in private-
sector investment that aligns on-going private-sector activity 
with DHS operational component requirements.
    The budget will allow S&T to continue our commitment to 
first responder and disaster resilience R&D, with an additional 
$10.9 million to fund programs requested by FEMA that will 
increase resiliency, preparedness, and risk mitigation in 
support of FEMA's strategic plan.
    The budget request also includes $7.1 million to continue 
funding the Chemical Security Analysis Center, or the CSAC. The 
CSAC identifies and assesses chemical threats and 
vulnerabilities in the United States and develops the best 
responses to potential chemical hazards.
    CSAC has been instrumental in supporting the Nation with 
research and development for the rapid detection of synthetic 
opioids. S&T's mission is to deliver effective and innovative 
insights, methods, and solutions for the critical needs of DHS 
components and our operational partners.
    Through our revitalization efforts and within the available 
resources provided by the 2020 budget, S&T plans to continue to 
build upon that mission.
    Chairman Richmond, Ranking Member Katko, and the Members of 
the committee, thank you, again, for the opportunity to appear 
before you today, and for your continued support of S&T. I look 
forward to answering your questions.
    [The prepared statement of Mr. Bryan follows:]
                  Prepared Statement of William Bryan
                             April 30, 2019
    Good afternoon Chairman Richmond, Ranking Member Katko, and 
distinguished Members of the subcommittee. Thank you for inviting me 
here today to testify on the President's budget request for fiscal year 
2020, which includes a request of $582.1 million for the Science and 
Technology Directorate (S&T) within the U.S. Department of Homeland 
Security (DHS).
    The Department's research and development (R&D) activities support 
a broad range of DHS missions, including domain threat awareness, 
delivering mitigation strategies, and creating novel technology and 
approaches for the components, first responders, and other partners 
across the homeland security enterprise. Our customers put their lives 
on the line every day to keep our Nation safe, and having the correct 
tools, techniques, and/or technologies can be vital to the operators' 
safety and success.
    We must enable efficient, effective, and secure operations across 
all homeland security missions by applying timely scientific, 
engineering, and innovative solutions through research, design, test 
and evaluation, and acquisition support. This is how we deliver 
results. Technology innovation cycles are rapidly changing and the 
nature of the threats we see is dynamic. This combination presents a 
significant challenge to traditional R&D approaches.
    Therefore, it is my mandate to ensure an efficient, effective, and 
nimble organization is in place to address R&D needs of Homeland 
Security front-line operators, particularly the DHS operational 
components and first responders, today and into the future. Either 
through the identification of existing technologies or the timely 
development of new technology, S&T can provide them with the tools they 
need to safely and effectively protect the Homeland and the American 
people. In order to accomplish this, we have revitalized our 
structures, processes, and procedures to ensure that S&T provides 
impactful solutions to the ever-changing threats faced by our Nation. 
We will solidify and strengthen S&T's core capabilities and provide a 
deliberative approach to program execution that ensures timely delivery 
and solid return on investment for our Nation's taxpayers.
    Over the past few months, we have set the foundation for S&T to be 
more agile and responsive, ready to move quickly in response to changes 
in the threat environment, and to make use of existing technologies, 
when available, that can be adapted and leveraged to expedite the 
development of vital capabilities. S&T has significantly enhanced its 
ability to transfer capabilities to where they are most needed by 
working closely with operators, component partners, and industry to 
deliver effective solutions. The revitalization strengthens our 
relationships to DHS components, first responders, and other customers, 
and results in a more integrated approach to innovation, requirements 
gathering, and problem solving.
    In the fiscal year 2020 request, S&T reorganizes the Apex thrust 
area to, Innovative Research and Foundational Tools, which realigns 
current R&D projects and funding, enabling the efficient management and 
execution of knowledge products and capabilities to better support DHS 
components and front-line operators. This reorganization will focus on 
identifying optimal approaches and solutions that address the 
operators' needs through our Technology Centers (formerly Apex 
Engines), Technology Scouting, and initiatives that foster S&T's 
partnerships with industry and universities. R&D investments under this 
thrust area will improve requirements generation by conducting more 
thorough operational analysis and mission prioritization. These tools 
support S&T's operational blueprint model by enabling a matrixed 
approach to meeting customer requirements, either through identifying 
existing technology and innovation or by initiating new R&D efforts.
    S&T is dedicated to developing or adopting innovative tools for DHS 
components, and the fiscal year 2020 budget request supports that 
effort. For example, the S&T Opioid Detection project will pilot 
advanced technologies, including narcotics anomaly detection algorithms 
and chemical sensing technologies, in CBP international mail facilities 
in fiscal year 2020. Additionally, the Next Generation Explosives Trace 
Detection (Next Gen ETD) program will support TSA's 2017 Strategic 
Five-Year Technology Investment Plan for Aviation Security, which calls 
for the deployment of Next Gen ETDs in 2020 and the development of 
technologies and concepts of operation that enhance passenger 
experiences during screening.
    The 2018 DHS Cybersecurity Strategy emphasizes the importance of 
robust cross-Departmental cybersecurity R&D. I believe that having a 
strong cybersecurity R&D program is critical for DHS. The fiscal year 
2020 President's budget request proposes that most of DHS's cyber 
research and development resources are included in Cybersecurity and 
Infrastructure Security Agency's (CISA) request. Over the last 8 
months, CISA and S&T have collaborated on a plan for execution of the 
fiscal year 2019 funding, in addition to the future-year portfolio 
planning for fiscal year 2020 and beyond. CISA and S&T have jointly 
decided on cybersecurity R&D focus areas and requirements to foster 
partnerships and coordinate efforts between Government, industry, 
academia, National laboratories, and international entities to improve 
the global cybersecurity posture. CISA and S&T are working together to 
collectively leverage our knowledge, capabilities, and technology to 
protect our Nation's infrastructure from being undermined by our 
adversaries. To accomplish this, CISA and S&T leadership have 
identified, prioritized and validated research and development 
priorities for the S&T work program--each of which can be mapped to a 
Departmental cybersecurity priority. To do so, CISA has included S&T 
program managers in discussion of CISA technology road maps and 
technical areas in emerging risk; and S&T has included CISA in its 
domestic and international work programs. CISA has identified 
cybersecurity R&D areas where there is a need for cyber analytics as 
well as ``big data'' and ``data lake'' applications for cyber 
operations. Additionally CISA has requested that S&T focus a 
significant percentage of its current Cyber Security R&D portfolio on 
mobile devices, mobile application security, and emergency 
communications, to include emerging 5G LTE security requirements.
    The fiscal year 2020 request continues support for S&T's Silicon 
Valley Innovation Program (SVIP), which leverages innovative commercial 
capabilities from across the country through non-traditional Government 
contractors to rapidly deliver technology to fulfill DHS component-
defined requirements. This program fosters rapid development and 
delivers tested technology into the field in a much shorter time frame 
than is possible under traditional vehicles. S&T's SVIP collaborates 
with DHS operational components to provide solutions that enhance 
overall situational awareness, detection, tracking, interdiction, and 
apprehension. To date, over 400 small businesses have applied to 
participate in SVIP solicitations. S&T has worked with 35 small start-
up companies and leveraged over $400 million in private-sector 
investment that aligns on-going private-sector activity with DHS 
operational component requirements.
    The budget will allow S&T to continue our commitment to First 
Responder and Disaster Resilience R&D with an additional $10.9 million 
to fund programs requested by FEMA that will increase resiliency, 
preparedness, and risk mitigation in support of the FEMA Strategic 
Plan. Specifically, this proposed funding increase will establish a 
program to support a public safety and broadband implementation through 
research, development, testing, and evaluation of technologies that 
support end-user implementation.
    The fiscal year 2020 President's budget request includes $7.1 
million to restore funding for Chemical Security Analysis Center (CSAC) 
operations. CSAC identifies and assesses chemical threats and 
vulnerabilities in the United States and develops the best responses to 
potential chemical hazards. CSAC will continue directly supporting on-
going work with customers, including work on chemical multifunction 
detectors, analysis and response to chemical incidents, and development 
of mitigation strategies to protect the public. CSAC has been 
instrumental in supporting the Nation with research and development for 
the rapid detection of synthetic opioids.
    The fiscal year 2020 President's budget request maintains S&T's 
Test and Evaluation (T&E) program at $7.7 million. T&E helps DHS 
acquisition programs to be completed at a lower cost and on schedule. 
While many factors determine the success of an acquisition, conducting 
T&E allows DHS program managers to identify issues earlier and address 
concerns faster based on a scientific and independent evaluation. S&T's 
T&E efforts support every major program on the Department's Major 
Acquisition Oversight List (MAOL) by providing valuable independent and 
scientific based input at each Acquisition Review Board before a 
program advances to initial or full production or deployment decisions.
    The fiscal year 2020 budget request allows for the continuation of 
the university-based Centers of Excellence (COE) that are focused on 
homeland security mission needs. COEs that will receive funding in 
fiscal year 2020 will conduct research and development that aligns with 
the administration's priorities to strengthen border security, 
cybersecurity and infrastructure protection, and prioritize trans-
national criminal investigations. S&T conducts rigorous evaluations of 
each Center's performance using established criteria to help inform 
project funding decisions that meet operator needs, and are focused on 
transferring or transitioning research and technology outputs into 
field use.
    S&T's mission is to deliver effective and innovative insight, 
methods, and solutions for the critical needs of DHS components and our 
operational partners in homeland security. Through our revitalization 
efforts and within the available resources provided by the fiscal year 
2020 President's budget, S&T plans to continue and build upon that 
mission.
    Chairman Richmond, Ranking Member Katko, and Members of the 
committee, thank you again for the opportunity to appear before you 
today and for your continued support of S&T.
    I look forward to answering your questions.

    Mr. Richmond. I want to thank both witnesses for your 
testimony.
    I now recognize myself for 5 minutes for questions.
    This is not a trick question, I just really would 
appreciate a yes or no as to the best of your ability.
    Our intelligence agencies and the Mueller report both 
confirm Russian election interference. Do you have any reason 
to dispute those assertions from our intelligence community and 
the Mueller report?
    Mr. Krebs. No, sir.
    Mr. Richmond. Do you agree that election interference is a 
real and dangerous threat that must be addressed?
    Mr. Krebs. Yes, sir. I do.
    Mr. Richmond. With that, let me ask you some other 
questions that are not yes or no.
    Who at the White House is leading the whole of Government 
election security effort?
    Mr. Krebs. So presently we work closely with the NSC on 
election security-related policy issues. We have clear guidance 
from Ambassador Bolden and the National Security Council on 
what it is they expect of us to do.
    When it comes down to actual execution of election security 
efforts across the interagency, we also have very clear 
understanding of our lanes in the road between the intelligence 
community, the FBI, the law enforcement community and my team 
at DHS CISA.
    The intelligence community works to find out what the bad 
guys are doing. The FBI works to help take them off the table, 
arrest or whatever. Then, my team works with State and local 
election officials to provide them an understanding of the 
threat landscape and provide them the tools, capabilities, 
training exercise, what other capacity-building capabilities, 
in support of their efforts.
    Mr. Richmond. I know that you would be interested in 
information sharing. The FBI is focused on collecting evidence 
and building a case.
    I guess I am a sports guy, so I do sports analogies, and I 
understand that everybody has their different routes to run and 
their different assignments. Somebody is going to block; 
somebody is going to do that.
    Who is the quarterback, is my question? Who is making sure 
that everybody is running their routes, blocking who they are 
supposed to block and tackling who they should tackle?
    Mr. Krebs. So there are head coaches, there are defensive 
coordinators and there are offensive coordinators in this 
analogy.
    Mr. Richmond. Who is the head coach?
    Mr. Krebs. So the President is the head coach. We have 
offensive and defensive coordinators across the bat, but when 
you talk about this law enforcement coordination piece and the 
investigatory piece, we have improved relationships with the 
FBI on sharing information, deconfliction of actual on-network 
sorts of activities, where I am trying to get in there and help 
the victim recover their networks, while the FBI is trying to 
figure out who is doing this, who the bad guy is, whether it is 
Russia or whomever.
    There is a process. Now I will say, the process needs to 
improve. The FBI has a long history of processes and 
procedures. They have been at this game a bit longer than my 
team has. We are still evolving. I still see CISA as an agency 
is a bit of a start-up.
    So we are still working internally to build the processes 
that we need so that we can work with the Defense Department. 
We can work with the FBI. We can work with the intelligence 
community to ensure that we are doing the things that we need 
to do to ensure the victims are protected.
    Mr. Richmond. Is there one person who wakes up every day to 
make sure that you all are coordinated, and that is their sole 
responsibility? So who would be the offensive and defensive 
coordinator?
    But I am talking about somebody whose own responsibility, 
look, the President has a whole bunch of things that he has to 
work on. But is there someone in the White House or anywhere 
else that wakes up to make sure that you all are coordinated 
with the FBI, who is coordinated with the CIA and that 
everybody is doing what they are supposed to do?
    Mr. Krebs. There is an entire directorate within the 
National Security Council that is focused on cybersecurity. 
There is a director focused on the resilience.
    So there are a number of officials at the White House and 
the Executive Office of the President and the NSC that support 
our efforts. Again, from a policy perspective, you know, we are 
the operational agencies. I have all the authorities I need to 
go do my job.
    So when I wake up every day, I am figuring out how to make 
sure State and local election officials are getting the support 
they need, just like the FBI when they go out and they do their 
job, and the intelligence community they do their job.
    Mr. Richmond. The fiscal year 2020 budget request, if 
enacted, will cut CISA's budget below the 2019 funding levels. 
How would you manage those cuts, and how would spread them 
across CISA?
    Mr. Krebs. So I think you have to think through the budget 
formulation process.
    So the fiscal year 2020 budget process was started in about 
18 months or so ago, actually, before I was really in a 
leadership position at the agency. It is, truly, what I would 
call, and this is an NPPD budget, so it is a legacy budget.
    What we are doing right now is, we are standing up. As we 
are standing up CISA, we are trying to figure out what we want 
to be when we grow up. So 2 years from now, where do we want to 
be positioned?
    There are a number of unmet requirements, I think, that we 
are discovering. I think today's release of the National 
critical functions, alone, is representative of the 
potentiality of this agency.
    So we identify 55 functions. This is an evolution of the 
risk management thinking beyond 16 sectors. This is 55 
functions that really, truly impact National security, economic 
security, public health and safety.
    So I can address at current a number of these functions. I 
think election security is a great example. Congress has 
invested in my agency, to date, close to $60 million purely 
focused on election security.
    I don't think outside of Federal networks, I don't think I 
have another critical infrastructure sector that Congress has 
invested specifically to that level.
    If you factor in the, well, $22.3 million in the fiscal 
year 2020 request, that is over $80 million on a National 
critical function.
    Mr. Richmond. I am a minute over, so I will just ask you a 
very simple question. If we doubled your budget, would you 
spend it all?
    Mr. Krebs. Yes, sir. Absolutely.
    Mr. Richmond. Thank you.
    With that, I will yield to the Ranking Member Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman, I appreciate it.
    Just a quick question, well, not a quick question. This is 
more of a detailed question, actually. In Albany, New York, not 
far from my district, there was a recent ransomware attack that 
could have affected the police department's patrol vehicles. I 
am horrified to think what could have been done if they got 
into those systems.
    How does CISA perform outreach to State and local 
governments like these? Can that outreach be improved with 
proper funding?
    Mr. Krebs. I think we have a lot of room to grow in State 
and local engagement. It is interesting that you mention 
Albany, New York, because actually one of our key partners in 
engaging with State and local officials, election or otherwise, 
is based in Albany. It is the Multi-State Information Sharing 
and Analysis Center.
    We fund the MSISAC on an annual basis. You have heard me 
talk about our Albert sensors before, or our network net flow 
and intrusion detection systems. They manage that process for 
us.
    So what more can I do? This is not something that gets 
fixed overnight. Working with State and local officials, again, 
election or not, the progress has to first be made on the 
relationship-building in the trust side.
    I have a lot of tools that, if I was given more resources, 
I could scale those tools. But the thing I can't buy overnight, 
I can't go build with an engineer, is the relationship and the 
trust between these officials.
    So it is going to take time, it is going to take people, 
and it is going to take relationship development. But with the 
appropriate resources, I can get all those things done in due 
time.
    Mr. Katko. I mean, and I would like to follow up on another 
area. What percentage of the homeland security grants, to your 
knowledge, go toward cybersecurity?
    Mr. Krebs. I would have to get back to you on the specifics 
of the budget, the grant budget. But I will say this, that the 
last year was the first year that, in the Homeland Security 
Grant Program, that there was two important elements: A 
requirement for an investment justification for cyber 
expenditures, as well as the requirement to include a CIO or 
CISO on the decision board at the State level.
    That has been carried through to this year. But, you know, 
it is out of the same big pot of money that we have a number of 
other requirements set against and we have historically had 
those requirements set against.
    Mr. Katko. Now, last week I had the pleasure to spend quite 
a bit of time at Syracuse University in their quantum computing 
research area. To say that my head hurt when I got done is an 
understatement. They are very smart people, but quantum 
computing is a real threat. It is a very real threat in the 
cyber area, as far as our cyber defenses.
    So as CISA is thinking about securing tomorrow, how are you 
preparing for the potential effects of quantum and other 
emerging technologies on critical infrastructure?
    Mr. Krebs. So as I think of emerging technologies, whether 
it is quantum or artificial intelligence, machine learning, 
some of those things are here in certain respects. I have to 
look at both sides of the opportunity, as well as the potential 
risk; 5G is actually a fantastic example of this right now.
    So one of the things that I am doing, that I plan to do is 
we will use this National critical functions set, 55 functions, 
to work with stakeholders to understand what the potential 
impacts on them may be.
    Ultimately, critical infrastructure in the United States--
and I don't have the primary source here--85 percent owned and 
operated by the private sector. We have heard that number time 
and time again.
    So when I want to understand where the risk is, where I 
want to understand what the potential impacts are, I go to the 
source. I go to the people that own the networks and get a 
sense of what their concerns are. I am able to then bring 
intelligence community, the law enforcement community.
    I really do sit in an interesting spot in Government and 
industry, that intersection of the I.C., law enforcement in the 
private sector and within those Government conversations, I am 
the advocate for the private sector.
    Mr. Katko. So what I mean, just so we are clear, could you 
explain to the committee just at an elementary level, because 
everyone understands the threat that quantum computing is, but, 
basically, it is fair to say if the bad guys get the quantum 
computing capability before we do on a large scale, that our 
networks are going to be much more vulnerable. Is that fair to 
say?
    Mr. Krebs. I think, particularly from an encryption, you 
know, post-quantum computing presents a number of risks to our 
current security configurations, encryption, password 
management, things of that nature. So it is something that the 
Federal Government is investing in quite significantly right 
now.
    Mr. Katko. Last, and I will be quick here. With the 55 
National critical functions, you issued today, you spoke about 
them for a moment but I want you to expand them just briefly. 
How do you envision this is different from our critical 
infrastructure sectors and lifeline sectors? How can we assure 
that this does not leave anyone behind?
    Mr. Krebs. So the way I think about this is, is we are 
increasingly connecting, is we are more interdependent. This 
framework, which it really is a framework more than anything, 
allows us to think about those things that are more important. 
It is not about specific organizations, businesses, banks, 
energy companies, whatever.
    It is about the thing they do and the thing they deliver, 
and who is involved in delivering that service. So it actually 
allows us to expand and open up the aperture so that we are not 
leaving people behind.
    I think in the current formulation it is possible that we 
are not hitting all the right bits and pieces of the supply 
chain, for instance, small and medium-size businesses.
    This gives us a better appreciation of some of those niche 
or boutique companies that may deliver a really critical 
service that doesn't fall neatly within the 16 sectors.
    Mr. Katko. Well, thank you very much. I yield back the 
balance of my time.
    Mr. Richmond. Thank you.
    The Chair now recognizes for 5 minutes the gentleman from 
Mississippi, Mr. Bennie Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Acting Under Secretary Bryan, I will try to be a little 
specific on my questions. For instance, in the budget that is 
proposed, the Coastal Resilience Center at the University of 
North Carolina at Chapel Hill is scheduled for elimination. Do 
you support that?
    Mr. Bryan. Mr. Chairman, I support the President's budget. 
Having said that, I certainly appreciate the resources Congress 
has provided over the years and the support to the S&T folks 
and the mission that we have.
    All of our Centers of Excellence provide great value. In 
fact, that particular Center of Excellence has handled about 
137 technical requests and has received additional resources 
from outside of S&T for the work that they are doing.
    But under the proposed budget, we are going to have to look 
at some Centers of Excellence two of them, frankly that would 
have to be shut down and halt the start-up of three other ones, 
should the President's budget be executed.
    Mr. Thompson. So is that a yes or no?
    Mr. Bryan. All I am saying, Chairman, all the Centers of 
Excellence provide value. Tough decisions had to be made, when 
you have to reduce your budget.
    Fortunately, over the past few years, we have not had to 
execute on some of those tough discussions that we have had to 
have with the budget that we have been given.
    But again, we have to look at the priorities of the 
Department and look at some of the other mission areas of the 
other Centers of Excellence in making those decisions.
    Mr. Thompson. Well, I would assume that is a maybe? You 
know, they do a lot with coastal resilience and we have lost 
immeasurable coastal properties. The Chairman's area of 
Louisiana is a good example of the losses.
    So I would like to have the benefit, if not at this 
hearing, as to how we plan to replace that capacity, because it 
appears to be something that is vital to everything.
    Coupled with that, you talked about 35 small companies you 
have been given contracts to as it relates to small business 
opportunities and what have you.
    Do you have the data on how many women-owned or minority-
owned or anything like that?
    Mr. Bryan. Mr. Chairman, we can get back beyond the 
specifics of that. We do have some programs focusing on 
Historically Black Colleges and Universities, as well as 
minority-serving institutions. If you don't mind, I can share 
some of those activities?
    Mr. Thompson. Well, I would love to have it.
    Mr. Krebs. Certainly.
    Mr. Thompson. Thank you very much.
    Mr. Krebs, the supply chain problem that we have identified 
a good bit, have you looked at how we can better manage supply 
chains so it does not continue to be a vulnerability?
    Mr. Krebs. We have a number of efforts on-going right now. 
Last year we established an ICT supply chain risk management 
task force. I mentioned in my opening that 20 members of the 
Federal Government, 20 members of the I.T., and 20 members of 
the comms.
    Basically what we are trying to do through this task force 
is to bring together a diverse group of players who all play in 
the supply chain risk management space somewhere, at some point 
and create more of a consistent lexicon or understanding of 
(A), how to share threat information.
    I get information from Kaspersky Labs for instance, how can 
I share that out in a protected manner to people that can take 
action and remove the threat?
    Mr. Thompson. Thank you. Election security.
    Mr. Krebs. Yes, sir.
    Mr. Thompson. Now that everybody agree that the Russians 
are a problem and that we need to do something about it, some 
of us are thinking about 2020 and what can we do between now 
and then to protect our system of elections? What is your 
suggestion to Members of Congress as to what we can do?
    Mr. Krebs. Sir, I think about protecting 2020 every day. In 
fact, a couple of months, a month or so ago, out at the RSA 
conference in San Francisco, I gave a keynote and I actually 
had bumper stickers made up that said, #Protect2020. We are all 
in on protecting the 2020 election.
    Where I think we are going to get the most amount of 
progress over the next year-and-a-half, No. 1, is continuing to 
extend our engagement with State and local election officials. 
We had about 1,400 of them prior to 2018 but there are 8,800 
total. So I have got to keep pushing out.
    We are also going to help understand where the risk truly 
is in the system. What are the things that are not just 
vulnerable but most susceptible, where the highest consequences 
are?
    Then once we get down, which I think we are pretty close, 
we need to figure out what resources are going to be required 
to close out those vulnerabilities. Whether anybody likes it or 
not there is a technology deficit in State and local 
governments in general but it is specifically in the election 
community.
    So what are the resources, whether they come from the 
Federal Government or from State and local legislatures--that 
is a conversation that we need to have. We need to get 
resources to these people so that they can protect their 
system.
    Mr. Thompson. So what you are saying is, is that technology 
deficit, unless it is fixed, potentially serves as a danger to 
the conduct of our 2020 elections?
    Mr. Krebs. Sir, I think just like any other I.T. problem, 
which in some cases the election security issues is just an 
I.T. security issue, there are 15-plus-year-old machines or 
equipment out there that may not be managed anymore. There may 
not be updates available. They may be out of cycle.
    So how do we get those systems, those known antiquated 
vulnerable systems out of the system and put the more secure 
stuff in? At the same time build auditability into the process 
and really hammer the importance of auditability across the 
election process.
    Mr. Thompson. So in other words, somebody needs to provide 
some resources for that to occur?
    Mr. Krebs. Sir, it has got to come from somewhere, yes, 
sir.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    Mr. Richmond. The Chairman now recognizes Mr. Walker from 
North Carolina for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman. I would also like to 
ask the overall committee Chairman for a copy of that report on 
the HBCU outreach by the under secretary. We need a copy that. 
We would appreciate that.
    Director Krebs, how does your agency interact with the 
Science and Technology Directorate? Can you mention the 
relationship?
    Mr. Krebs. So SOPD Bryan, is that what I am supposed to 
call you? That is my old title, the senior official performing 
the duties here. I actually have a embed. So I have a couple of 
folks from his shop that work with my folks on a regular basis.
    I define a set of requirements that I need support on from 
an R&D perspective, share that with Mr. Bryan and then he is 
able to align his research and development programs against my 
requirements. It was a top priority for both of us as we came 
in to ensure that we were pulling the same direction and that 
we weren't, you know, in often competing research and 
development priorities.
    Mr. Walker. Sure. What do you consider that, to use your 
words, a top priority?
    Mr. Krebs. Right now, I am looking at mobile security, 5G 
security for instance. There is a great deal of opportunity in 
front of both of us in terms of understanding what the risks 
are and how we can deploy more secured more mobile technology.
    Also looking at general data analytics and I have an 
incredible amount of data that I am able to collect off of 
Federal agencies. But I don't have the tools or the horsepower 
and the pipes to do the right kind of work across it and 
analyze the true threats. So, you know, he is helping me pull 
together what the tools and the infrastructure would look like.
    Mr. Walker. Nice transition to the under secretary, same 
question for you. How would you describe your relationship or 
the interaction with the Cybersecurity Infrastructure Security 
Agency and why is that alliance important to advancing overall 
DHS positions?
    Mr. Bryan. One of priorities when I took over this position 
was to increase the relationship. We are a customer service 
organization. So we have to create an environment where the 
components and the customers and first responders have to want 
to work with S&T because of the value added that we bring to 
them.
    That was not always the case across the board with the 
relationship between S&T and some of the components. The 
relationship between the former NPPD and the former leadership 
within S&T was not all that good. So there was not a lot of 
leveraging of capability.
    So Director Krebs and myself both determined that we were 
going to fix that and we structured our and built our 
organizations in such a way so that I actually have a team 
dedicated just to servicing CISA.
    I have teams dedicated to servicing every component within 
the Department of Homeland Security. So we are no longer in a 
position where you ask us for or give us a requirement and we 
take that and sit on it for a year and take another year to 
figure out how we are going to solve it. We actually have 
people, as he mentioned, embedded and so when a requirement 
comes in we can tackle it right away.
    Mr. Walker. Sure. Little bit of a concern on the 
duplicative efforts between the two. Can you address that and 
would the transfer of funds from the S&T to CISA, will that 
help eliminate some of the duplicity?
    Mr. Krebs. So we have worked hard over the last year-and-a-
half-plus to remove any redundancy or duplication of efforts. 
It doesn't matter where the money ends up. The job is going to 
get done. The job is going to get coordinated across the two of 
us.
    If I end up with the money, I will be working with Bill and 
his team to transfer and execute the funds in the research 
program accordingly.
    Mr. Walker. Any concern from either one of you that this 
would create challenges fulfilling the DHS cybersecurity 
missions as a whole?
    Mr. Krebs. Bill? I don't have any----
    Mr. Bryan. I have no concerns.
    Mr. Krebs. I think this is a matter of leadership and I 
think they both weigh into it.
    Mr. Walker. They switched up. I have a little bit, about 80 
seconds left. Although many areas within the S&T's budget 
requests had funding and reductions or transfers, one key 
thrust area that was increased with the RD&I or the Research 
Development and Innovation funding for border security.
    Do you think this is the result of DHS's commitment to 
finding a solution to the crisis at the border?
    Mr. Bryan.
    Mr. Bryan. Yes, I do. Not just are the crisis of the 
Southern Border but also the influx of opioids. So a lot of 
that increase had to do with helping to figure out how to find 
those opioids as they come in through the mail system and other 
places as well.
    Mr. Walker. Sure. As the Ranking Member privileged to serve 
on the Intelligence and Counterterrorism Subcommittee, I would 
like to hear your perspective on how the RD&I funding is 
helping to develop innovative technology products or other 
solutions to protect overall our Nation.
    Mr. Bryan. Well, a key element of our innovation, frankly, 
was within our Silicon Valley Innovative Program. That was a 
big benefit for us because we were able to tap into innovators, 
entrepreneurs, small companies, citizen scientists to help us 
with some of our most pending critical situations.
    Mr. Walker. OK.
    Mr. Bryan. Now, we have lost that authority, that OTFA 
authority which we are trying to get back, but the Silicon 
Valley Innovative Program was just one of many ways we are able 
to tap into that innovation quickly.
    Mr. Walker. OK, 10 seconds left. This last question, how 
has the CSA's work aligned with the 2018 DHS cybersecurity 
strategy? What remains to be done? If you would just hit the 
second part of that question, the strategy?
    Mr. Krebs. Sir, we have to continue rolling out into the 
critical infrastructure community. The Federal network's base 
is pretty straightforward. It is the critical infrastructure 
community. I need to be able to get my tools. One thing I need 
to be better at is marketing and engagement. So we are going to 
put a lot of effort there.
    Mr. Walker. Thank you, Mr. Chairman.
    Mr. Richmond. Thank you.
    The gentlemen from Rhode Island, Mr. Langevin, is 
recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to welcome our witnesses here today and thank you 
for you testimony. Thank you the job that you are doing. Before 
I get into my questions, I just want touch on, Chairman 
Richmond's question early on when we talked about, you know, 
who is in charge, who coordinating.
    You know, the reality is that we still don't have someone 
in charge. I understand the analogy with the President but, you 
know, since we are talking sports analogies that would be 
equivalent to, you know, maybe the, you know, the team owner.
    But, you know, who is actually executing and you don't have 
a Bill Belichick that person who was basically fired by the 
cybersecurity coordinator. So nobody really has the policy and 
budgetary authority to reach across Government that is pulling 
this together.
    So that is something that we still need to focus on. I 
still say that we need a Senate-confirmed director with policy 
and budgetary authority to do that, but we will leave that for 
another time.
    Director Krebs, I appreciate the work that you and your 
team are doing at CISA. But as you know, I also sit on the 
House Armed Services Committee and from that perspective I am 
fully vested in assuring that CISA has the capacity wherever 
possible to complete its core mission without drawing on 
Pentagon resources.
    So developing that expertise is essential for DHS, again 
not having to always rely on reach-back to cyber command or NSA 
for expertise. You know, based on my experience, you know, I 
have that capacity building so where it relies on a DHS work 
force.
    So to that end, does the budget request reflect internal 
efforts to train and importantly retain the DHS cybersecurity 
work force?
    Mr. Krebs. Thank you for the question, and I would probably 
pick, if you asked me a different NFL head coach other than 
Belichick, not a Patriots fan. Look, the----
    Mr. Langevin. We will have to agree to disagree on that 
one. I think he is doing pretty good.
    [Laughter.]
    Mr. Krebs. When we look at the budget, particularly from a 
personnel perspective, we are still growing as an agency. We 
are still filling billets. I think I got about 1,300 folks.
    Let's see, I have 1,100 cybersecurity professionals in 
place. There are about 361 vacant positions right now, about 40 
percent of those we either have a pending decision or a hiring 
action against. So our vacancy rate is not huge but it is so we 
need to be filling those spots.
    We have cross-training mechanisms in place. We are working 
to cross-train across not just CISA and not just DHS but 
through part of the President's management agenda.
    We will be pushing out a cybersecurity work force academy 
across the entirety of interagency. But at the same time, we 
are looking down the road of what does our incoming pipeline 
look like?
    Partnering with the Scholarship for Service Program to 
bring in college graduates and graduate programs, working with 
organizations like the recently announced cyber talent 
initiative, MasterCard-Microsoft work day just launched. You 
know, we need to be innovative in thinking about ways that we 
can bring folks in, retain them.
    But, you know, if we lose them to industry it is not the 
worst thing in the world because if they are with me for 5, 6, 
7, 8 years and then go out to industry that means I am building 
an alumni network that I haven't previously had, particularly 
along the lines of the FBI and the service academies. So we are 
looking at all different angles in terms of building that 
capacity.
    Mr. Langevin. Right. It is essential. I mean even 
USCYBERCOM says that attracting and retaining the best talent 
is a challenge.
    So gonna follow up on this, you know, do you believe that 
CISA is an attractive place for technical and operational 
cybersecurity experts? How does the budget support efforts to 
make it more attractive?
    Mr. Krebs. I am flat out, yes. I think it is one of the 
best places to work in the Federal Government. I mean, you get 
to go work with the critical infrastructure community, you get 
to work with the Federal agencies and hunt for Russian, 
Chinese, North Korean, Iranian actors on a daily basis. That is 
just plain fun.
    Mr. Langevin. So let me ask this before my time runs out. 
You know, you pledged again to work with any jurisdiction that 
needs cybersecurity help on the elections. But do you actually 
now have the personnel to do that, as well as to meet your 
other demands and priorities customers?
    Mr. Krebs. I think at the moment we are finding that the 
request for our support is escalating in particular from the 
State and local community. I think elections have shown us 
that, that there is a huge unmet need out there. So as I look 
to the out years we are going to need to boost our 
capabilities, absolutely.
    Mr. Langevin. You know, I hope you are going to be asking 
for the right resources to do that and we stand ready to 
support you, so----
    Mr. Krebs. Yes, sir.
    Mr. Langevin. I know my time is expired.
    Thank you, Mr. Chairman, I yield back.
    Mr. Richmond. You are welcome.
    The gentleman from Texas, Mr. Taylor, is recognized for 5 
minutes.
    Mr. Taylor. Are you sure? All right. Thank you, Mr. 
Chairman, appreciate that.
    Just going back to the conversation we had before we 
started this hearing in terms of municipal subdivisions of, you 
know, some cities', you know, utility districts. A lot of those 
governmental entities have personal data, right?
    So they have got addresses, names, Social Security numbers, 
credit card information. What are the penalties in Federal law 
for a data breach for those organizations?
    Mr. Krebs. So not necessarily an expert in specific 
jurisdiction by jurisdiction but there are certain cases where 
there are very narrowly tailored regulatory programs in place 
that speak to data breach issues. But general speaking it is 
State by State of what the requirements are to notify the 
public, to notify any potential victims.
    Mr. Taylor. What actions are we taking at the Federal level 
to try to help cities, counties, special purpose districts, you 
know, subdivisions underneath the States to secure their data, 
to deal with cyber attacks?
    Mr. Krebs. So every service pretty much that I can provide 
to the Federal Government I try to shift that out to State and 
local governments. Little-known fact, but the continuous 
diagnostics and mitigations program, which is basically an 
economies of scale where we buy a bunch of services and 
products for the Federal agency, that list is available to 
State and local government.
    So what I need to do is I have really good technical 
capabilities. I have really good tools and services. What I 
need to do a better job of is building awareness across State 
and local governments of what those things are, how they can 
use them.
    Quick example, last year was a really bad year for State 
and local governments between Charlotte and Mecklenburg County, 
Baltimore, Atlanta, Colorado Department of Transportation all 
got popped for ransomware. We took that, saw the trend lines 
and executed a ransomware awareness campaign, webinars, local 
engagement.
    My field force was engaging on a local basis. We saw an 
uptick in services, but we have got to keep it hitting harder. 
We got to keep hitting it harder. A lot of these jurisdictions 
don't have the resources or the wherewithal to protect 
themselves.
    Mr. Taylor. Shifting over to the National Risk Management 
Center which has only been on-line for 10 months, can you speak 
to what has happened there and then can--where we have come in 
10 months, and where you sort-of see the future?
    Mr. Krebs. Yes, sir. So the concept behind the National 
Risk Management Center was to take an existing organization or 
a sub-component within my organization. It was more of an 
internal research or risk analysis feature that took a task 
from internal, you know, my leadership team and some other 
stakeholders.
    Our concept was to flip it around and turn it into a 
storefront for industry to come in and set our risk and 
analytics, strategic risk analytics agenda.
    So in the mean time things we have done, first and 
foremost, today's National critical functions effort. That was 
spearheaded by the National Risk Management Center, again, an 
evolution of risk management thinking.
    The ITC supply chain risk management task force managed by 
the National Risk Management Center, never been done before at 
this scale across the interagency and within industry.
    The election security efforts run out of the National Risk 
Management Center. But fundamentally, this is about 
identifying, understanding strategic risk, and driving 
initiatives to manage that risk today and in the future.
    Mr. Taylor. Then you mentioned this briefly in your opening 
remarks about the domain name system or DNS and then can you 
just speak to, what are we, need to do there and sort-of what 
is the problem and what is the future solution?
    Mr. Krebs. Right, it is the internet phone book on how you 
end up on that URL or that website that you are looking for.
    What we found in early January during the shutdown was that 
somebody out there had figured out a way, not particularly 
sophisticated but just a concerted effort at global scale, of 
how to tamper or, highjack is not the right word, but tamper 
with that process and comprise accounts.
    So what we did first and foremost was figured out what was 
happening across the Federal interagency and locked it down and 
had a better awareness. That is what we accomplished through 
the emergency directive.
    Going forward what we think we can do is centralize some of 
those DNS records management processes across the Federal 
Government because, again, I have 99 agencies to work with.
    What we want to do is provide as much centralization of 
services as possible so we can lock that process down. In 
addition, the way a lot of malware works from its command-and-
control infrastructure is it beacons back and forth to the 
mothership using DNS lookups.
    So if we can sit on top of that process we will have a 
better understanding of what is going on across the Federal 
interagency.
    Mr. Taylor. All right.
    Thank you, Mr. Chairman, I yield back.
    Mr. Richmond. Thank you.
    I now recognize the gentlelady from New York, Congresswoman 
Rice.
    Miss Rice. Thank you, Mr. Chairman. So, Mr. Krebs, I think 
you were talking before I don't know if I heard this correctly 
but would you describe it as a resistance with State and local 
governments to working together with you on election security? 
Or is that not the right word?
    Mr. Krebs. If you had asked me 2 years ago, I may have, 
kind-of, may have said yes. Look, I like thinking through this 
process from where we were, where we are now, and where we need 
to go. In 2016 when this all went down and we were not really 
as a government, State and local or Federal, really aware of 
the potential risk to the election process.
    So when the Federal Government engaged, and it is something 
that is historically and by statute legislative tradition a 
responsibility of State and local governments, there was an 
immediate recoil. There was an immediate antibody that said we 
have got this. We don't need your help.
    But from the intelligence community perspective, from DHS, 
we understood the risks, I think. So but when you don't have 
trust and you are trying to work in this space, it is an uphill 
climb.
    But in the intervening 2 years, particularly in the run-up 
to 2018, just the commitment, the engagement, the providing 
resources and the communication that we are not trying to take 
elections over.
    Miss Rice. Right.
    Mr. Krebs. We don't want to regulate elections. We are here 
to help. The ship has turned entirely, 180 degrees from where 
we were. We work with all 50 States.
    We have sensors, those Albert sensors, we just shipped the 
50th. So that means every State's secretary of state at the 
highest level is going to be working with us on the intrusion 
detection system.
    I am really optimistic about where we are going, but the 
technology deficit remains. There is work to be done. We have 
got to figure out how to improve and modernize and upgrade 
these systems.
    But a lot of it is also a people problem, so we have got to 
continue to educate, continue to share that phishing remains 
one of the biggest threat vectors that the bad guys are using, 
particularly the Russians.
    Miss Rice. So in 2016, most of the Russian efforts were 
targeted at the party committees, whether it was the DNC or the 
DCCC and the individual campaigns of elected officials.
    When you testified before the full committee in February, 
you stated that you didn't see a problem with using the 
information sharing--ISAC, the Information Sharing Analysis 
Center--model to develop a more formal information-sharing 
arrangement between DHS and the political party committee and, 
for that matter, individual elections.
    I mean, we are all up here in a constant election mode, and 
I can tell you I am sure I don't know the best ways to keep the 
political side, and this is not talking about politics here, 
but the fact is that those are where the attacks are happening.
    So have you been able to set up an arrangement, whether it 
is the Republican side or the Democratic side, these party 
committees?
    Mr. Krebs. So prior to the 2018 mid-term, we did work with 
all the National-level committees and some State-level 
committees. That is going to continue to be a priority for us, 
the committee level as well as the specific campaigns.
    We will provide services. We will continue to do those 
things that we offer for States, whether it is vulnerability 
scanning, information-sharing mechanisms, we are going to offer 
those up. But I would ask, each of you are in cycle right now. 
Do you know if your campaign is working with us? You know, that 
is a good question to ask.
    In the mean time, the DNC, Bob Lord, the CIO over there, I 
think has done a really good job of talking about the basics of 
security, cyber hygiene, you know, using commercial-grade 
email, using encrypted messaging apps, multifactor 
authentication, really basics.
    If you do the basics, if your campaigns do the basics, I am 
not talking go buy some super sophisticated security widget, if 
you do the basics, you can address 90 some-odd percent of the 
threat.
    Miss Rice. Right. I agree with you.
    Mr. Bryan, the President's budget again proposes closing 
the National Urban Security Technology Laboratory, NUSTL, in 
Manhattan, New York. NUSTL supports the successful development, 
evaluation and transition of Homeland Security technologies 
into field use for first responders.
    I have also reintroduced legislation to permanently 
authorize the lab which passed the House unanimously in the 
last Congress. Many police commissioners and fire chiefs have 
expressed grave concern over the President's desire to close 
NUSTL and hamper efforts to prevent and respond to terrorist 
attacks.
    Every first responder agency in the New York metropolitan 
area utilizes NUSTL technologies, including the NYPD, the FDNY, 
and certainly in my district the Nassau County Police 
Department on Long Island. How does closing the only lab 
entirely focused on preparing and protecting first responders 
against threats of terrorism make any sense?
    Mr. Bryan. Again, ma'am, I can't say enough positive things 
about NUSTL myself. It is a capability and an asset with 
relationships they have formed in New York to be able to do the 
kind of work that they are doing, and you have articulated all 
that very well.
    My role right now and what I have to do is look at should 
we have to lose that capability, what would we do with the work 
that is going on?
    Miss Rice. But do you have the power or do you feel like 
you have the power to voice your concern about maybe cutting in 
a different area other than this? That is my question. I mean, 
I understand the loyalty. I understand that the orders come 
from the top down.
    But if you have a very deep, real concern, which it sounds 
like you do, about getting rid of this NUSTL, you know, what 
are the remedies? There has to be a remedy.
    Mr. Bryan. Yes, the only remedy I have and all I can do is 
look to where those capabilities could be performed elsewhere.
    Miss Rice. But clearly they are unique to this 
infrastructure.
    Mr. Bryan. Yes, ma'am.
    Miss Rice. I think we just have to continue that 
conversation. I think more people in positions like yours and 
Mr. Krebs' hopefully, you know, stand up and push back when 
things like this want to be done by the administration. Thank 
you both very much.
    Thank you, Mr. Chairman.
    Mr. Richmond. You are welcome.
    Now the other gentleman from Texas, Mr. Ratcliffe, is 
recognized for 5 minutes.
    Mr. Ratcliffe. Thank you, Chairman.
    I want to thank the witnesses for being here. For those 
that have been on this subcommittee for a while, they know that 
it has been an effort over multiple years on this committee to 
elevate DHS's cybersecurity mission through CISA.
    So I was especially pleased that the President's budget 
request included increased funding for what is our Nation's 
lead civilian cybersecurity agency. I think that shows that 
this administration is serious about prioritizing our defenses 
against new and emerging cybersecurity challenges, and I have a 
lot of confidence that that will hopefully continue because it 
has to continue.
    It is obvious to both of you that cybersecurity now touches 
literally every aspect of the world we live in. It is central 
to every sector of our economy. It is vitally important for 
protecting the most sensitive information of every American, 
and that makes it one of our foremost National security 
challenges.
    In my time on the committee, I have tried to press the 
Department to continue to improve its work in providing the 
private sector with actionable real-time cyber threat 
intelligence, to improve as a forum for cross-sector 
cybersecurity work, and now to continue its good work on the 
continuous diagnostic and mitigation program, a program that I 
believe is vitally important to our cybersecurity posture.
    So to that point, Director Krebs, I want to ask you, the 
administration's budget request includes an increase for CDM to 
continue providing those necessary tools and services for all 
phases of the program that enable our Federal I.T. networks to 
strengthen our security posture of those cyber networks.
    I would like you to, if you can, expand on the reasons 
behind the increase in funding for CDM.
    Mr. Krebs. Thank you, sir. Your long-term support of CISA 
has been a huge part of our success in getting us into an 
agency from NPPD. In terms of CDM, CDM is certainly one of 
those kind of arrows in the quiver as we protect the Federal 
network.
    CDM is one of the reasons, one of the capabilities of why 
we have improved so dramatically since the OPM breach. In 
particular, the understanding and the ability to look across 
those 99 agencies and understand what, for instance, operating 
systems are running within their environment and help work with 
those agencies to get them on a road map or a path to a more 
secure configuration.
    When I talk about dividing operational directive for patch 
management, vulnerability management, we are able to see what 
is going on in those agencies in terms of those critical 
vulnerabilities or those high vulnerabilities. So we can 
actually measure now. We have the visibility so we can see, and 
we can take action.
    CDM will continue to be, for us, long term, whether it is 
understanding what is on the network, who is interacting on the 
network and ultimately getting down to the data protection 
level. It will be a core element, one of the crown jewels of 
Federal network security for us.
    Mr. Ratcliffe. So to that point then, is the funding level 
that is included, is it sufficient to advance the procurement 
and the installation of CDM's capabilities all the way through 
phase four?
    Mr. Krebs. Well, I mean, when you think about the life-
cycle of the program, of CDM, and it is important to keep in 
mind that every agency, there are 99 agencies, every agency has 
a different level of maturity. So some agencies may be ready to 
go to Phase Four well before other agencies.
    So two elements of that. One, we have to continue investing 
in agencies and getting them up to speed and getting their 
systems modernized. But also it allows for a policy 
conversation on what do we want the future of Federal networks 
to look like?
    My view is that having 99 different agencies to manage 
independently is long-term an untenable position. I think there 
is a model that the Department of Defense has in the DODN where 
they have broader span of control over the elements of the 
Department of Defense.
    When we think about these 99 agencies, what I want to be 
able to do is provide more centralized services, so take some 
of the risk out of the hands of the departments and agencies.
    Earlier this week, we were named the qualified service 
management offering for security services, which puts us in a 
shared service model out to those other Federal agencies, but 
really getting to a point where CIOs and CISOs or CIOs thinking 
more about citizen services rather than securing their 
infrastructure. Let my team help manage that process.
    Mr. Ratcliffe. Director, my time has expired, but just to 
follow up on that, because you and I have talked about this a 
lot, we need to be better at breaking down the initial barriers 
to provide agencies with real-time situational awareness and 
risk-based accountable information, all of which are vitally 
important and imperative to our Federal cybersecurity efforts.
    The bottom line is this funding level, will it do that? 
Will it expand the CDM program to more agencies and in the end 
allow CISA to better protect and manage those high-value 
assets?
    Mr. Krebs. So certainly, with more I can do more. With more 
people, I can work with CIOs of agencies to help them develop 
their plans. I can help push out a security baseline for 
secured configuration across the agencies. So certainly, you 
know, I can do more, and I can do more faster.
    Mr. Ratcliffe. I appreciate the Chair's indulgence. I yield 
back.
    Mr. Richmond. You are welcome.
    The gentlelady from Texas, Mrs. Jackson Lee, is recognized 
for 5 minutes.
    Ms. Jackson Lee. I thank the Chair and the Ranking Member 
for this hearing, and it couldn't be more important.
    I am just going to briefly start with you, Mr. Bryan. As 
you well know, I spoke to you a couple of months ago with a 
major university who had a concern, and I have not yet heard, 
and it is an important issue for them. They work very hard, and 
I am just wondering when you will reach my office with a 
response?
    Mr. Bryan. Yes, ma'am. If I am not mistaken, a formal 
response was drafted, and I will follow up on where that went. 
But in the short order, I can tell you that the discussion was 
based on two projects that they were considering at the 
university.
    One of them has already been approved, and we are 
adjudicating the other one as we speak, so it should not take 
much longer before a final decision is made.
    Ms. Jackson Lee. So maybe we will reach each other. It did 
not lapse, which was their concern, that they did not get out 
of the queue.
    Mr. Bryan. That is correct.
    Ms. Jackson Lee. So they are in the queue?
    Mr. Bryan. Yes.
    Ms. Jackson Lee. Let me thank you very much.
    Let me just pursue, Mr. Krebs, this whole idea of the 
budget, and I do appreciate at least the suggested budget of 
the President. How many staff are in your sector?
    Mr. Krebs. So across the agency, we are at about 2,200 
personnel, Federal full-time equivalent.
    Ms. Jackson Lee. This is dealing with cybersecurity issues?
    Mr. Krebs. Cybersecurity I am at about close to 1,200 in 
terms of cybersecurity.
    Ms. Jackson Lee. Yes, I am just talking about 
cybersecurity.
    Mr. Krebs. Cybersecurity, yes, ma'am, about 1,200.
    Ms. Jackson Lee. OK. Let me read, Pittsburgh, the Tree of 
Life, Robert Gregory Bowers; Mother Emanuel, Dylann Roof; 
Christchurch, Brenton Harrison Tarrant; San Diego, John 
Earnest; and most recently, Los Angeles, a terrorist suspect 
arrested yesterday, Mark Steven Domingo.
    I would say a good percentage of those used the cyber 
system to proffer their hate or to take from it their hate. I 
think, Mr. Krebs, you have acknowledged the kinds of persons 
that are utilizing the cyber system.
    How many of those people do you have working on these kinds 
of hate efforts, dastardly acts that result in the murder of 
Americans and sometimes the murder of people around the world?
    Mr. Krebs. So on the physical side of this, Tree of Life is 
a great example. One of my protected security advisors up in 
Pittsburgh had worked with Tree of Life Synagogue, had done a 
security assessment, a walk-through of the facility and 
identified areas for perhaps improved egress.
    In fact, the rabbi at the Tree of Life Synagogue had 
credited my team for saving lives.
    Ms. Jackson Lee. I am particularly talking about the use of 
the cyber system to promote hate.
    Mr. Krebs. Yes, ma'am.
    Ms. Jackson Lee. What are we dealing with?
    Mr. Krebs. So this is a domestic terrorism issue, in part. 
Recently, the office, and I would have to get back with you on 
the structure and the engagement, but in Office of Terrorism 
Prevention this was just last week or 2 weeks ago out of the 
Office of Policy that is focused on, much like countering ISIS, 
how do we address issues like this of on-line speech?
    Fundamentally, when I look at the problem there, there are 
First Amendment challenges with this challenge right now, or 
with this issue right now. But my team is focused. When you say 
cyber systems, really what you are talking about is social 
media, email, and other forms of I.T. and communications.
    That does not fall within the traditional cybersecurity 
definition, and it does not fall within my traditional 
cybersecurity authorities.
    Ms. Jackson Lee. Well, let me move on, because I think it 
should. Let me ask unanimous consent to place in the record the 
Computer Week, ``Why Connected Devices Are Transforming Our 
Personal and Working Lives in a Multitude of Ways.''
    They are also a growing security risk of attackers who are 
hijacking these devices and turning them into an internet of 
things botnets. So I would ask to place that in the record.
    Mr. Richmond. Without objection.
    [The information follows:]
           Article Submitted by Honorable Sheila Jackson Lee
             how botnets pose a threat to the iot ecosystem
                               april 2019
Nicholas Fearn, Computer Week
https://www.computerweekly.com/feature/How-botnets-pose-a-threat-to-
        the-IoT-ecosystem
While connected devices are transforming our personal and working lives 
        in a multitude of ways, they are also a growing security risk--
        attackers are hijacking these devices and turning them into 
        internet of things botnets
    Connected technology already plays a dominant role in our daily 
lives. From mobile phones to tablet PCs, smart devices allow us to 
communicate with friends and family, keep up-to-date with what is 
happening in the world, stay entertained, accelerate productivity in 
the workplace, and much more.
    But although the connected ecosystem is pretty expansive in 2019, 
it is about to get even bigger in coming years. We are on the cusp of 
an era when nearly everything around us has some form of internet 
ability, such as home appliances, cars, office equipment, city 
infrastructure, and health care devices.
    For many, the internet of things (IoT) will mark the next major 
revolution for mankind. According to figures from Statista, there will 
be 31 billion devices connected to the internet by 2025, and Gartner 
predicts that the average family home will have 500 smart devices by 
2022. Meanwhile, IDC claims that spending on the IoT will reach $745 bn 
in 2019.
    However, while IoT technology offers a great deal of opportunity, 
it is also causing a major security epidemic. Hackers are increasingly 
exploiting connected devices to harvest sensitive data, send spam, take 
control of networks and launch cyber attacks around the world.
    Botnet attacks have become commonplace, with CenturyLink Threat 
Research Lab estimating that 195,000 such attacks take place every day 
and Accenture putting the average cost at $390,752. It is clear that 
the continued expansion of the IoT ecosystem means more potential 
access points and weak areas that need to be mitigated. But how can 
that be achieved?
A growing crisis
    Traditionally, criminals have used malware to infect devices. 
However, as the connected ecosystem expands and new technologies enter 
the market, they are finding different ways to launch more complex and 
devastating attacks. Botnets are a good example of this.
    Mike Benjamin, head of Black Lotus Labs at CenturyLink, says 
botnets are becoming a pervasive problem across the internet and 
attackers are increasingly using IoT devices building their botnets. 
This, he claims, is creating a big security problem for consumers and 
businesses.
    Botnets are particularly challenging because they evolve over time 
and new forms constantly emerge, one of which is TheMoon. Benjamin 
tells Computer Weekly: ``Threat researchers at CenturyLink's Black 
Lotus Labs recently discovered a new module of IoT botnet called 
TheMoon, which targets vulnerabilities in routers within broadband 
networks.''
    Benjamin explains that a previously undocumented module, deployed 
on MIPS devices, turns the infected device into a Socks proxy that can 
be sold as a service. ``This service can be used to circumnavigate 
internet filtering or obscure the source of internet traffic as a part 
of other malicious actions,'' he says.
    Attackers are using botnets such as TheMoon for a range of crimes, 
including credential brute forcing, video advertisement fraud and 
general traffic obfuscation. ``For example, our team observed a video 
ad fraud operator using TheMoon as a proxy service, impacting 19,000 
unique URLs on 2,700 unique domains from a single server over a 6-hour 
period,'' says Benjamin. ``TheMoon is a stark reminder that the threat 
from IoT botnets continues to evolve. They are becoming more 
sophisticated and capable of more significant damage.''
Botnets are always advancing
    Like Benjamin, 451 Research IoT analyst Ian Hughes believes botnets 
are a prevalent security risk because they are always changing. He says 
that over the past few years, many forms of botnet have been created in 
line with the evolution of the technology industry and with advances in 
software engineering.
    ``Pre-cloud, the target would be viral infection on PCs through 
installation of patches to programs, usually accidentally by the 
user,'' says Hughes. ``With the increase in connectivity, and the use 
of the internet and the web in a cloud era, the options for nefarious 
code to be run on machines increased.
    ``Not only did the technology introduce more potential holes, but 
the ability for individual and groups to share information with one 
another, such as code, made weaknesses in systems much more well-known. 
Systems have also evolved from specific hardware and software 
combinations, which, when bespoke, are harder to gain control of en 
masse, to ones running general-purpose virtual machines, containers or 
services.''
    And as more devices connect to the internet, this challenge will 
only grow, says Hughes. ``We have an increasing number of devices with 
relatively cheap compute power on board, all connected to the internet 
and able to run any form of software, and be managed remotely,'' he 
says.
    ``We also have a growing and eager market to instrument areas such 
as industrial manufacture, as well as the consumer space with IoT, 
which offers great benefits, but also increases the attack surface and 
options for bad actors to engage with. With an ever-more connected 
environment, a device such a simple surveillance video camera, in the 
case of the Mirai botnet, can have some of its processing hijacked and 
directed at almost anything else.''
    To tackle botnets, Hughes says all networks and all devices need 
not only high levels of security monitoring and regular updates, but 
also known levels of trust within a system. ``These levels of trust are 
starting to be built upwards from the chip manufacturers as well as the 
device and software industry,'' he says. ``Of course, it only takes one 
release of a product at any level cutting some corners to get to 
market, to leave something wide open for hackers.''
Poor security
    It is clear that the continued adoption of IoT devices is creating 
a unique opportunity for attackers. Steven Furnell, senior IEEE member 
and professor of information security at Plymouth University, notes how 
poorly secured connected devices can be exploited.
    ``We've seen numerous reports of individual devices being 
exploited, we've seen a growth in malware, and we've had the Mirai 
botnet already demonstrating the significant potential to harness 
vulnerable devices,'' he says.
    ``What this clearly illustrates is that we've failed to learn from 
the past. Around 15 years ago, we had wireless access points being sold 
without encryption enabled and with default passwords. Security was 
available, but it required users to be aware enough to switch it on and 
change from the defaults.
    ``Unsurprisingly, many didn't do so, and exploitation of 
unprotected access points was commonplace as a result. It was only once 
that wireless networks had become synonymous with vulnerability that 
the position ultimately changed, and manufacturers moved to enabling 
security out-of-the-box by default.''
    Furnell believes the IoT ecosystem is experiencing a similar 
situation, putting pressure on manufacturers to develop more robust 
security mechanisms to protect users. ``We have since seen the same 
sort of thing happen with IoT devices,'' he says. ``Devices have 
shipped either without security, without it enabled, or with universal 
defaults--all of which render them vulnerable to misuse, including the 
potential for enlistment within botnets.
    ``Moving forward, the fundamental point is that IoT devices need to 
have security available and we cannot leave it to individual users' 
discretion about whether to enable it. There have been some positive 
moves. Last year, the Department for Digital, Culture, Media and Sport 
and the National Cyber Security Centre issued a code of practice for 
the security of consumer IoT devices.
    ``This proposes a set of 13 practices that developers, 
manufacturers and retailers could adopt to improve security, with the 
first of these being the elimination of universal defaults for 
usernames and passwords.''
Cracking down on botnets
    Although there is no silver bullet solution for mitigating the risk 
of botnets, there are a number of helpful best practices. ``When 
deploying an IoT device of any type, the three most important questions 
need to be: Have we configured strong credential access? What is our 
update strategy for firmware changes? What URLs and IP address does the 
device need for its operation?'' says Tim Mackey, senior technical 
evangelist at Synopsys.
    ``When IoT devices are deployed within a business environment, best 
practice dictates that a separate network segment known as a VLAN 
should be used. This then allows for IT teams to monitor for both known 
and unknown traffic impacting the devices. It also allows teams to 
ensure that network traffic originates from known locations.
    ``For example, if a conference room projector is accessible via Wi-
Fi, the network the device uses should be restricted to only internal 
and authenticated users. Public access to the device should always be 
restricted. Following this model, exploitation of the device would then 
require a malicious actor to first compromise a computer belonging to 
an authenticated user.''
    Mackey says regular IT audits of IoT networks should then be 
performed to ensure only known devices are present, with the device 
identification mapped back to an asset inventory containing a current 
list of firmware versions and a list of open source components used 
within that firmware.
    ``This open source inventory can then be used to understand when an 
open source vulnerability impacting a library used within the firmware 
has a published vulnerability,'' he says. ``Armed with this 
information, a proactive update and patching model can be created for 
corporate IoT devices.
    ``Also, inspection of the firmware should identify what external 
APIs (application programming interfaces), URLs and services the 
firmware is configured to operate against.
    ``These endpoints should be confirmed with the supplier as 
legitimate with confirmation of their function. Once confirmed, the IoT 
network that the device associated with the firmware is configured for 
can then have firewall restrictions defined, allowing the IoT devices 
access only to their known API dependencies. These tasks should be 
considered part of an overall device access model consistent with the 
principles of zero trust.''
    Spencer Young, regional vice-president for Europe, the Middle East 
and Africa at security firm Imperva, says the best way to discover and 
mitigate a botnet is to find its command and control (CnC) server. 
``The most effective way is to look into the communication between the 
CnC and its bots,'' he says. ``Once you start searching for exploit 
attempts, you can start to pick up possible indicators of a botnet.
    ``For example, if the same IPs attack the same sites at the same 
time while simultaneously using the same payloads and attack pattern, 
it is fairly likely that they're part of the same botnet.
    ``However, all initiatives to combat the growth of botnets through 
industry standards and legislation are likely to continue to occur only 
on a regional or country level. As far as industry-wide efforts go, it 
is hard to imagine a scenario in which a global security standard for 
botnet detection and defence could be agreed upon, applied and 
enforced.''
    Given the regulatory challenges and continued rise in the number of 
connected devices, botnet attacks are likely to keep increasing. Young 
says that as our devices evolve, both in terms of sophistication and 
connectivity, so will botnets. This, he believes, will mean that 
operators will be provided with more capacity and new, more advanced 
attack options.
    So preparation is key, says Young. ``To mitigate future attacks, 
all businesses must be prepared to defend against an attack when it 
arises,'' he says. ``Investing in the ability to parse your cyber 
threatscape, successfully identify botnet attacks and build an 
intelligent defence is not just a security concern--it's a frontline 
business issue.''
    If one thing is certain, it is that the threat of botnets will only 
increase as the connected ecosystem rapidly expands and new connected 
technologies enter the market. And while attackers will continue to 
find new ways to take control of networks and leverage botnets, there 
are clear ways in which IT practitioners and organisations can mitigate 
the risk here--most notably the issue of improving weak security 
mechanisms.
    It may be that attackers are often one step ahead, but by being 
more proactive, security teams can also leapfrog ahead on occasions.

    Ms. Jackson Lee. Let me ask a question again, Mr. Krebs, on 
maybe something that is within your jurisdiction. What is being 
done to incentivize election officials to report suspected 
malicious cyber activity, and how arduous are the reporting 
processes? What did we learn from the tabletop vote exercise?
    If you can hold that question? Then the second one is on 
the issue of botnets, which are networks of private computers 
infected with malicious software and controlled as a group 
without the owner's knowledge, i.e., to send spam messages or 
launch attacks against networks or computing services.
    One of the new exploits involved using voiceover IP on the 
internet to launch an attack that targets a phone number for 
calls that are auto-dialed or redirected for the purpose of 
preventing legitimate telecommunications from occurring. We 
know what the Russians did in 2016. Is your office considering 
this type of threat to public elections posed by botnets?
    If you would answer those two serious questions.
    Mr. Krebs. Yes, ma'am. So in terms of general incentives to 
election officials, steady engagement, regular engagement 
providing them an understanding of the things we can do to help 
them out. Our incentive is the support service.
    We provide them assistance. We help them manage the risk to 
their systems, build a relationship, build trust and confidence 
that I can help them. If they have a bad day, they will come to 
me. I have confidence that we are building those relationships 
and we will get there.
    In terms of specific botnet mitigation, two fronts on this. 
In the Executive Order 13800, there was a requirement to 
develop a botnet report. We worked on that with Commerce and 
TIA, set out a work plan with industry on countering botnets.
    So we are addressing this from two angles. One, working 
with industry to actually address the botnet challenge more 
holistically. But also we work with election officials to help 
them understand the threat posed by botnets and put counter-
botnet or botnet, I am sorry, DDoS mitigation capabilities in 
place in their system.
    So if they do experience some sort of DDoS attack then, 
which is effectively what we are talking about here, then they 
have the security mitigations in place.
    Ms. Jackson Lee. You said it was Executive Order 1300?
    Mr. Krebs. 13800.
    Ms. Jackson Lee. 13800.
    Mr. Krebs. Yes, ma'am. May 2017.
    Ms. Jackson Lee. All right. Let me thank you very much.
    I yield back.
    Mr. Richmond. I thank the gentlelady.
    I thank the witnesses for their valuable testimony and 
Members for their questions. The Members of the committee may 
have additional questions for the witnesses, and we ask that 
you respond expeditiously in writing to those questions. 
Without objection, the committee record shall be kept open for 
10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 3:46 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions From Chairman Bennie G. Thompson for Christopher C. Krebs
    Question 1. CISA carries out a broad cybersecurity mission that 
includes protection of 99 Federal agency networks, hundreds of 
thousands of U.S. critical infrastructure entities, and covers the 
waterfront of infrastructure and networks that support our day-to-day 
life. And, CISA does so on a budget that is one-eighth that allocated 
to the Pentagon. If CISA's budget doubled tomorrow, what are some of 
the priorities you would pursue?
    Answer. Response was not received at the time of publication.
    Question 2a. Since 2014, Congress has repeatedly expanded CISA's 
cybersecurity authorities and responsibilities, including late last 
year when Congress voted to make CISA an operational component. 
Nevertheless, CISA's budget has remained fairly flat and, if the fiscal 
year 2020 request were enacted, it would actually see its budget cut.
    How does this square with the challenges of reorganizing, staffing, 
and operating this new agency?
    Answer. Response was not received at the time of publication.
    Question 2b. This is a pivotal time for CISA. Might forcing CISA to 
operate on a less-than-adequate budget have lasting effects on the 
success of the agency?
    Answer. Response was not received at the time of publication.
    Question 3. Earlier this year, the DHS Inspector General reported 
that CISA's election security activities are being carried out by a 
skeleton crew, and outreach to local election officials are stretching 
CISA's field teams extremely thin. The fiscal year 2020 budget requests 
$22 million for support to State and local election officials. Is this 
enough to reconcile the need for ``improved planning, more staff, 
clearer guidance'' and other deficiencies identified by the IG?
    Answer. Response was not received at the time of publication.
    Question 4a. In 2013, a fertilizer plant exploded in West, Texas, 
killing a dozen first responders. Last year, a Houston facility caught 
fire after a back-up generator failed during Hurricane Harvey. This 
year alone, there have been multiple explosions at chemical facilities 
in Texas that caused major portions of the city to shut down and 
residents being told to shelter in place for days. The CFATS program is 
a vital National security program that requires security measures at 
the Nation's highest-risk chemical facilities. The fiscal year 2020 
budget proposes slashing CFATS budget by $18 million. How can you 
justify such a dramatic cut to a program that is operating effectively, 
has bipartisan support, and has such demonstrable value to the chemical 
sector?
    Answer. Response was not received at the time of publication.
    Question 4b. On February 26, 2019, this committee held a hearing on 
CFATS with the director of the Infrastructure Security Compliance 
Division. At that hearing, I requested and was promised information on 
CFATS-covered facilities. Following that hearing, I submitted Questions 
for the Record for which no response has been provided. Moreover, I was 
asked to submit some of my requests in a separate letter, which I did, 
and yet again have not received a response. What is the status of this 
correspondence?
    Answer. Response was not received at the time of publication.
    Question 5. As National interest in cybersecurity has grown, I 
worry that we are losing focus on DHS's long-standing mission to 
protect physical assets. As CISA reorganizes and plans for the future, 
what is your long-term goal for the Infrastructure Security Division?
    Answer. Response was not received at the time of publication.
    Question 6. On April 26, 2019, the Office of Management and Budget 
(OMB) issued a memorandum titled, Centralized Mission Support 
Capabilities for the Federal Government which pre-designates CISA as 
the lead for cybersecurity shared services across the Federal networks. 
I support this designation but am concerned that OMB's draft plan 
designates the Department of Justice (DOJ) as the functional lead for 
Security Operations Center (SOC) as a Service with DHS preforming an 
oversight role. This structure may prove to be unsuccessful given 
previous challenges in their interagency relationship. What is the 
rationale for establishing DOJ as the lead for ``SOC as a Service'' 
instead of establishing it within CISA, which is statutorily 
responsible for securing Federal networks?
    Answer. Response was not received at the time of publication.
    Question 7a. With respect to the National Risk Management Center 
(NRMC)--can you describe how the series of initiatives, or sprints, 
that began last year will feed into a larger strategy to help 
Government and the private sector better manage risk?
    Are these initiatives intended to be short-term engagements or will 
they become permanent?
    Answer. Response was not received at the time of publication.
    Question 7b. Are responsibilities from the Infrastructure Security 
Division being transferred to the NRMC? If so, what impact does the 
shift in responsibilities have on morale at the Infrastructure Security 
Division?
    Answer. Response was not received at the time of publication.
    Question 8. Recently, the NRMC released a list of 55 ``National 
Critical Functions'' (NCF). The shift from protecting ``critical 
sectors'' to ``critical functions'' is a major realignment. Until now, 
the Federal framework for securing critical infrastructure has been 
based on DHS, as the lead Federal coordinator, working with designated 
Sector-Specific Agencies who act as liaisons and coordinators within a 
sector. The NCF list is a more integrated approach, and efforts to 
secure a single function will likely cross into multiple sectors and 
require more coordination. How do you expect CISA's role as coordinator 
to evolve in order to secure this more expansive, complex list of 
functions?
    Answer. Response was not received at the time of publication.
    Question 9. Thus far, DHS has released a 3-page overview of the 
National Critical Functions. What more do you expect to release to the 
public, and to Congress? What is your time line for doing so?
    Answer. Response was not received at the time of publication.
    Question 10. CISA plans to build upon its National Critical 
Functions work to build a Risk Register, which will identify scenarios 
that could degrade these functions, tier them by severity, and enable 
better prioritization of mitigation activities for critical 
infrastructure. What is the time line for the creation of the Risk 
Register?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
